<html>
<title> - BUILDING OPPORTUNITY IN RURAL AMERICA THROUGH AFFORDABLE, RELIABLE, AND HIGH-SPEED BROADBAND</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


BUILDING OPPORTUNITY IN RURAL AMERICA THROUGH AFFORDABLE, RELIABLE, AND
                          HIGH-SPEED BROADBAND

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON COMMODITY EXCHANGES, ENERGY, AND CREDIT

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 11, 2019

                               __________

                           Serial No. 116-15

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-193 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

        Subcommittee on Commodity Exchanges, Energy, and Credit

                     DAVID SCOTT, Georgia, Chairman

JEFFERSON VAN DREW, New Jersey       AUSTIN SCOTT, Georgia, Ranking 
FILEMON VELA, Texas                  Minority Member
STACEY E. PLASKETT, Virgin Islands   ERIC A. ``RICK'' CRAWFORD, 
ABIGAIL DAVIS SPANBERGER, Virginia   Arkansas
ANTONIO DELGADO, New York            MIKE BOST, Illinois
ANGIE CRAIG, Minnesota               DAVID ROUZER, North Carolina
SEAN PATRICK MALONEY, New York       ROGER W. MARSHALL, Kansas
ANN KIRKPATRICK, Arizona             NEAL P. DUNN, Florida
CYNTHIA AXNE, Iowa                   DUSTY JOHNSON, South Dakota
                                     JAMES R. BAIRD, Indiana

               Ashley Smith, Subcommittee Staff Director

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     5
Kirkpatrick, Hon. Ann, a Representative in Congress from Arizona, 
  submitted letter; on behalf of James D. Ogsbury, Executive 
  Director, Western Governors' Association.......................    63
Scott, Hon. Austin, a Representative in Congress from Georgia, 
  opening statement..............................................     3
Scott, Hon. David, a Representative in Congress from Georgia, 
  opening statement..............................................     1
    Prepared statement...........................................     3

                               Witnesses

Hengel, David, Executive Director, Greater Bemidji, Inc., 
  Bemidji, MN....................................................     8
    Prepared statement...........................................    10
Mollgaard, Neela, Executive Director, Red Wing Ignite, Red Wing, 
  MN.............................................................    14
    Prepared statement...........................................    16
    Submitted question...........................................    70
Hess, M.D., David C., Dean, Executive Vice President of Medical 
  Affairs and Integration, Presidential Distinguished Chair, and 
  Professor of Neurology, Medical College of Georgia, Augusta 
  University, Augusta, GA........................................    19
    Prepared statement...........................................    21
Watahomigie-Corliss, Hon. Ophelia, Councilwoman, Havasupai Tribe, 
  Supai, AZ......................................................    27
    Prepared statement...........................................    29
Hurst, C. Blake, President, Missouri Farm Bureau Federation; 
  Board Member, American Farm Bureau Federation, Tarkio, MO......    33
    Prepared statement...........................................    34
    Submitted questions..........................................    71

 
BUILDING OPPORTUNITY IN RURAL AMERICA THROUGH AFFORDABLE, RELIABLE, AND
                          HIGH-SPEED BROADBAND

                              ----------                              


                        THURSDAY, JULY 11, 2019

                  House of Representatives,
   Subcommittee on Commodity Exchanges, Energy, and Credit,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. David 
Scott of Georgia [Chairman of the Subcommittee] presiding.
    Members present: Representatives David Scott of Georgia, 
Van Drew, Vela, Spanberger, Delgado, Craig, Kirkpatrick, Axne, 
O'Halleran, Austin Scott of Georgia, Crawford, Rouzer, 
Marshall, Johnson, Baird, Hartzler, Allen, and Conaway (ex 
officio).
    Staff present: Carlton Bridgeforth, Emily German, Matt 
MacKenzie, Isabel Rosa, Ashley Smith, Paul Balzano, Patricia 
Straughn, Dana Sandman, and Jennifer Yezak.

  OPENING STATEMENT OF HON. DAVID SCOTT, A REPRESENTATIVE IN 
                     CONGRESS FROM GEORGIA

    The Chairman. This hearing of the Subcommittee on Commodity 
Exchanges, Energy, and Credit entitled, Building Opportunities 
in Rural America through Affordable, Reliable, and High-Speed 
Broadband, will come to order.
    Good morning, and welcome to today's hearing on broadband 
Internet connectivity and the great opportunities it presents 
for our rural communities. This is an extraordinarily important 
and very timely and very necessary hearing, and this issue is 
an important one because it lets us shine light on those rural 
areas that have seen what broadband investment can do, and are 
thriving because of their access to broadband. Rural broadband 
is a prime example of how government investments, coupled with 
private innovation, can create a ripple of success and increase 
the quality of life for Americans in our rural communities.
    We are going to hear today from a cross-section of very 
knowledgeable people who have worked hard to increase access to 
and success in healthcare, agriculture, local communities, 
education, and small businesses. We are going to hear from them 
on their successes in leveraging broadband connectivity to 
enhance the services they provide to our communities. And it is 
my hope that through these stories, their reports to us this 
morning, that we can have a conversation, a meaningful, 
productive, beneficial conversation for our rural communities 
about those steps that we still need to take, because there are 
many, many rural communities that are crying out for our help 
and for broadband.
    In my home State of Georgia, for instance, we have lost 
seven rural hospitals since 2010. I want to repeat that so you 
see it: 2010, just 9 years ago, and we have lost seven rural 
hospitals. And this is third most in our nation. There are so 
many of our states who are suffering an impact with the loss of 
hospitals and the absence of those hospitals and broadband 
access, in many cases, means this. It means the ability to 
access telehealth, which \1/4\ of rural adults say that they 
have used.
    Let's go to the field of education. The gap between rural 
and urban adults with a college degree continues to widen. 
Broadband connectivity opens up a range of possibilities for 
online continuing education and degree completion at an 
increasing range of schools, including comprehensive state 
universities, and our land-grant colleges and universities, as 
well as regional schools with more specialized programs.
    Our farmers, for example, continue to use broadband to 
expand their toolbox and their knowledge base to make the most 
of their precision agricultural applications. And small 
businesses, they can leverage broadband to access a world's 
worth of consumers outside their own communities. But, not if 
we do not make and expand this investment. Our Subcommittee 
Members here are committed to making sure that we expand this 
investment.
    Now, I wanted to have this hearing so that we can see what 
is being done well. What of those successes can be done in 
other communities and also, what work remains for us to do? And 
I also know that the Federal Communications Commission Chairman 
Pai plans on releasing an order, very soon, for requiring 
increased reporting in an effort to improve the current failing 
broadband map system.
    It is very important that rural America weigh in on these 
policy changes at the FCC, and here in the halls of Congress, 
as we continue to talk about proposals to rebuild our crumbling 
infrastructure. This is the key that will open the door when 
Congress moves and puts forward the rebuilding of our crumbling 
infrastructure program. And we can't wait for that to start.
    I know that all of us on this Subcommittee agree, both 
Democrats and Republicans, that it is essential that rural 
broadband is an integral part of any infrastructure package, 
and we are going to make sure that rural broadband is a major 
centerpiece of our rebuilding of our infrastructure package.
    I am eager, as all of us are, to hear from our witnesses 
and how they tackled the challenges in rural America to give 
communities the access and tools they need to thrive through 
our broadband technology. We have to work together to make sure 
that our policies encourage growth and success in our rural 
communities nationwide.
    [The prepared statement of Mr. David Scott of Georgia 
follows:]

 Prepared Statement of Hon. David Scott, a Representative in Congress 
                              from Georgia
    Good morning, and welcome to today's hearing of the Subcommittee on 
Commodity Exchanges, Energy, and Credit on broadband Internet 
connectivity and the opportunities it presents for our rural 
communities.
    This issue is an important and timely one because it lets us shine 
light on those rural areas that have seen what broadband investment can 
do and are thriving because of their access to broadband.
    Rural broadband is a prime example of how government investments 
coupled with private innovation can create a ripple of success and 
increase the quality of life for Americans in rural communities.
    We're going to hear today from a cross-section of people who have 
worked to increase access to and success in healthcare, agriculture, 
local communities, education, and small business, on their successes in 
leveraging broadband connectivity to enhance the services they provide 
to their communities.
    And it's my hope that through those stories we can have a 
conversation about those steps we still need to take, because there are 
many.
    In my home State of Georgia, we've lost seven rural hospitals since 
2010, which is third most in the nation. In the absence of those 
hospitals, broadband access in many cases means the ability to access 
telehealth, which \1/4\ of rural adults say they've used.
    Within the field of education, the gap between rural and urban 
adults with a college degree continues to widen. Broadband connectivity 
opens up a range of possibilities for online continuing education and 
degree completion at an increasing range of schools including 
comprehensive state universities and our land-grant colleges and 
universities, as well as regional schools with more specialized 
programs.
    Our farmers continue to use broadband to expand their toolbox and 
knowledge base to make the most of their precision agriculture 
applications, and small businesses can leverage broadband to access a 
world's worth of consumers outside their own communities, but not if we 
do not make and expand this investment.
    I wanted to have this hearing so that we can see what's being done 
well, what of those successes can be done in other communities and what 
work remains. I also know that Federal Communications Commission 
Chairman Pai plans on releasing an order very soon requiring increased 
reporting in an effort to improve the current failing broadband map 
system. It is very important that rural America weigh in on these 
policy changes at the FCC and here in the halls of Congress as we 
continue to talk about proposals to rebuild our crumbling 
infrastructure. I know that all of us on this Subcommittee agree, both 
Democrats and Republicans that it is essential that rural broadband is 
an integral part of any infrastructure package.
    I am eager to hear from our witnesses and how they tackled 
challenges in rural America to give communities the access and tools 
they need to thrive through broadband technology. We have to work 
together to make sure our policies encourage growth and success in our 
rural communities nationwide.
    Now I'd like to recognize the Ranking Member Austin Scott of 
Georgia for any opening comments he would like to make.

    The Chairman. And now, in the consultation with our Ranking 
Member and pursuant to Rule XI(e), I want to make Members of 
the Subcommittee aware that other Members of the full Committee 
may join us today.
    And now, it gives me great pleasure to recognize my 
distinguished Ranking Member, Mr. Austin Scott, whom I refer to 
affectionately as my cousin Scott, for his opening statement. 
Mr. Scott?

  OPENING STATEMENT OF HON. AUSTIN SCOTT, A REPRESENTATIVE IN 
                     CONGRESS FROM GEORGIA

    Mr. Austin Scott of Georgia. Thank you, Chairman Scott. We 
have been good friends for a long time, 23, 24 years, somewhere 
in there.
    This is an important hearing on a subject that resonates 
with all Americans, specifically it resonates with me and my 
wife and my children. We live 15 miles north of high-speed 
Internet access, and we live 15 miles south of high-speed 
Internet access. And there are many times in our life where the 
fastest access that we have is through connecting to our 
iPhone. It is extremely important to us and to the industries 
that try to operate in areas like those that I live in with my 
family.
    I want to thank our distinguished witnesses that are here 
today to discuss how affordable, reliable, high-speed broadband 
can bring our communities into the 21st century.
    For more than 24 million Americans who live in rural 
communities, as I do, that do not have broadband Internet 
access and lack the infrastructure for reliable and affordable 
connection, as we will hear from our witnesses today, having 
reliable, affordable broadband is not about having modern 
conveniences. That is certainly important for us, but for most 
Americans, broadband access is about access to information, 
options, choices, and quite honestly, it is virtually 
impossible to run a business without it today.
    Whole conversations happen entirely online, and the only 
participants are those who have broadband access. Information 
of all forms is created, shared, and consumed entirely through 
a broadband Internet connection, and much of the machinery 
today is dependent upon these Internet connections to function. 
It enables new tools that can't be replicated in any other way, 
shape, or form. Big data and artificial intelligence, cloud 
storage and computing, the Internet of Things and data 
analytics, telemedicine--something else that is extremely 
important to those of us in the rural parts of the country--and 
other modern tools simply cannot be replicated without 
broadband access.
    Broadband access has become a dividing line between those 
24 million rural Americans and the modern broadband-dependent 
information services most urban and suburban Americans take for 
granted. It is not just rural Americans who suffer from this 
divide, though. Suburban and urban Americans are equally cut 
off from the voices and talents and ideas of their rural 
neighbors.
    So, for me, all options are on the table when it comes to 
providing our rural communities with the technological 
resources they need to grow and thrive. This includes 
strengthening effective programs that are already in place at 
the USDA and FCC, advocating for robust broadband support in an 
infrastructure package, and even encouraging innovative 
technologies like TV white spaces.
    This Committee did great work last Congress in the 2018 
Farm Bill to ensure that the USDA has the tools it needs to 
bridge the digital divide in rural America. Included were two 
amendments which originated in our office that I am very happy 
to have the support of this Committee that addressed the 
accountability measures and expanded our U.S. loans and grants 
to the middle mile infrastructure projects.
    Now, some might say quality broadband infrastructure 
investments will connect rural America to the rest of the 
world. I would suggest that it connects the rest of the world 
to the benefits of rural America. By bridging this digital 
divide, it will enable access to a wealth of economic 
opportunities for all parts of America, and it is in 
everybody's best interest.
    With that, Mr. Chairman, I yield back.
    The Chairman. Thank you very much, Mr. Scott.
    And now, I recognize our distinguished Ranking Member of 
the full Committee, Mike Conaway, for any opening statements he 
would like to make.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Well, thank you, Mr. Chairman. I appreciate 
your kindness and forbearance. Thank you for scheduling this 
hearing. It is an important topic, one that has been on the top 
of the minds of most Members for a long, long time. As the 
Ranking Member noted in his opening statement, broadband access 
is not about convenience. It is about being able to participate 
in modern life and the economy, which is rapidly moving onto 
the Internet.
    For those who lack access, their lives are fundamentally 
different than those who do have access. As Ms. Mollgaard noted 
in her written testimony, broadband is a platform, a generic 
technology that is powerful because it enables the creation of 
other tools and technologies.
    The importance of broadband is one of the many reasons that 
I am so proud of the farm bill we passed last December. We 
worked together across the aisle and across the Capitol to take 
the best ideas for how to build broadband infrastructure into 
our rural communities. We not only provided a new grant program 
to build broadband where it is needed, but also new 
requirements to build what is needed for the long haul. The 
forward-looking standards that we passed will make sure that 
new broadband projects provide high quality Internet service 
for long into the future.
    Because of the 2018 Farm Bill, USDA has the ability to 
better target its limited resources to the rural communities 
most in need. By prioritizing projects, incentivizing 
investments in more rural territories, and requiring better 
assessments for proposed service territories, we will be able 
to help our most rural and least equipped communities while 
protecting taxpayers.
    And finally, we also worked closely with the Energy and 
Commerce Committee to strengthen the cooperation between the 
USDA, FCC, and the Department of Commerce. One important 
product of this cooperation will be a comprehensive report on 
the long-term connectivity needs of rural communities, and the 
technology available to meet those needs.
    The 2018 Farm Bill broadband provisions represent a real 
success story that the Members of this Committee should be 
rightly proud of, but that success will be for naught if our 
appropriators--folks with the money--don't actually appropriate 
the funds that we authorized under our bill. I am hopeful that 
before the ink is dry on the 2020 appropriations package that 
it includes robust funding for the programs we worked so hard 
on.
    Let me also add my thanks to our witnesses for their 
diligence, preparation, and travel to be with us today. I look 
forward to your testimony.
    Mr. Chairman, thank you for calling this hearing and 
building out a record of how important broadband is for our 
constituents. I look forward to working with you and Chairman 
Peterson, Ranking Member Scott, and the rest of the Committee 
in advancing this good work.
    With that, I yield back.
    The Chairman. Thank you, Ranking Member Conaway.
    Now the chair would request that other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony, and to ensure that there is ample time for 
questions.
    Now, I know that Chairman Peterson wanted to introduce our 
first witness, but as he is stuck in the Veterans' Committee's 
markup, I am happy to introduce our first witness for him, and 
that would be Mr. David Hengel. Mr. Hengel is Executive 
Director of the Greater Bemidji an economic development 
organization in Bemidji, Minnesota. Good to have you, sir. 
Thank you for coming.
    And now, I would like to turn to Ms. Craig? Is Ms. Craig 
here?
    Ms. Craig. Yes, sir, Mr. Chairman.
    The Chairman. Oh, I thought so.
    Now I would like to recognize the gentlewoman from 
Minnesota, Ms. Craig, to make an introduction of our second 
witness.
    Ms. Craig. Excellent. Thank you so much, Mr. Chairman.
    It is my great pleasure to introduce Neela Mollgaard from 
Red Wing, Minnesota, here with us this morning. She is the 
Executive Director of Red Wing Ignite, which is an incubator 
for students, tech entrepreneurs, and local businesses.
    As the Executive Director of Red Wing Ignite, Neela 
harnesses the power of broadband connectivity and new 
technologies to create educational opportunities and foster 
innovation in our region. Prior to joining Red Wing Ignite, 
Neela led and helped create Red Wing's Care Clinic, a free 
medical clinic serving uninsured and low-income residents of 
Goodhue County, Minnesota. Neela has a long track record of 
leadership, serving our community on numerous charitable 
organization boards and committees. She played a pivotal role 
in forming Minnesota's broadband infrastructure priorities as a 
member of the Governor's Broadband Task Force. She is a 
graduate of the University of West Virginia's School of 
Medicine where she received a Master of Science in Community 
Health, and the University of Wisconsin at Madison, where she 
received a Bachelor of Science in Consumer Affairs in Business.
    Neela, it is an honor to have you here with us today.
    The Chairman. Our third witness hails from my beloved State 
of Georgia, and now I recognize the gentleman from Georgia, Mr. 
Allen, for the introduction.
    Mr. Allen. Thank you, Chairman Scott, for this opportunity 
to introduce Dr. David Hess here today. I congratulate this 
Committee on having this hearing, which is critical to 
survival, really, of rural America.
    Dr. Hess serves as the Dean and Executive Vice President of 
Medical Affairs Integration as well as the Presidential 
Distinguished Chair of Neurology at the Medical College for 
Georgia at Augusta University, located in my hometown of 
Augusta, and the 12th District of Georgia.
    A graduate of Johns Hopkins University and the University 
of Maryland School of Medicine, Dr. Hess is board-certified in 
internal medicine, neurology, and vascular neurology. Along 
with his passion for teaching, Dr. Hess's major area of 
interest is stroke and treatment for stroke and dementia. With 
over 185 reviewed publications, Dr. Hess has been involved in 
basic, pre-clinical, and clinical stroke research. He played a 
major role in developing the REACH Telestroke Network at 
Augusta University, which you will hear more about in his 
testimony today. This well-recognized telemedicine service now 
serves over 30 hospitals in rural Georgia. Additionally, Dr. 
Hess cofounded a telestroke company known as the REACH Health 
Incorporated, and served as Chairman of the Board of Directors 
from 2008 to 2018. Throughout his career, Dr. Hess has won many 
distinguished teaching awards and has been named to America's 
Top Doctors and Best Doctors in America every year since 2000.
    As my colleagues know, Augusta is well-known for his 
contribution to the great game of golf, and as you will see 
witnessed by the ties that Dr. Hess and I are wearing today, 
that we honor that tradition. But I will tell you this. Augusta 
is known through the efforts of Dr. Hess and his colleagues as 
the cutting-edge, high-tech medical center of this nation.
    Dr. Hess, thank you for being here today to share your 
testimony with my colleagues and for all the work you do for 
Augusta University in Georgia and this nation.
    And with that, sir, I yield back.
    The Chairman. Thank you, Mr. Allen.
    And now, I recognize the gentleman from Arizona, Mr. 
O'Halleran, to introduce our fourth witness.
    Mr. O'Halleran. Thank you, Chairman Scott and Ranking 
Member Scott, for having this meeting today.
    It is my great pleasure to introduce Councilwoman Ophelia 
Watahomigie-Corliss of the Havasupai Tribe.
    Just a brief little thing, if you ever want to go someplace 
beautiful, go down to the Havasupai Tribe. You can't get down 
there by car. You have to take a helicopter or hike down, but 
it is one of the most beautiful places on Earth.
    It is my honor to represent the Havasupai Tribe and to work 
in partnership with the Tribe to bring access to what I believe 
is the most remote community in the lower 48 states.
    I have been working with the Tribe to improve Internet 
access by assisting the Tribe to obtain a permanent educational 
broadband service license from the FCC, which has improved 
access to the Internet. I look forward to hearing more about 
how Internet access has improved access to information for 
members of the Tribe.
    I also want to follow up on Ranking Member Scott's comment 
about introducing the rest of the world to rural America. They 
better get introduced, because without rural America and the 
people in rural America that we have to have there, urban areas 
wouldn't exist.
    I welcome the Councilwoman here today. Thank you.
    The Chairman. Thank you very much, Mr. O'Halleran.
    Next, I will recognize the gentlewoman from Missouri, Mrs. 
Hartzler.
    Mrs. Hartzler. Yes.
    The Chairman. Sorry, excuse me. Please introduce our final 
witness, please.
    Mrs. Hartzler. Thank you, Chairman Scott and Ranking Member 
Scott, for holding this hearing and allowing me to be part of 
this Subcommittee hearing today. I am not a part of this 
Subcommittee normally, but what an important topic. It is so 
important to Missouri, and I am so proud to introduce our next 
guest.
    We have Mr. Blake Hurst that I have known for many years, 
but he is certainly a champion of agriculture in Missouri. He 
is President of the Missouri Farm Bureau, where he has been a 
leader for years, as well as other agricultural organizations 
in the state. But Blake knows what he speaks. He is a lifelong 
farmer. He and his family raise corn, soybeans, and they also 
have a greenhouse operation where they raise flowers.
    Besides being involved in organizations, he is also a very 
talented and prolific writer, which takes the message of rural 
America to such publications as The Wall Street Journal, 
Reader's Digest, Today's Farmer, among others, and he has been 
very involved in leading efforts in Missouri, dealing with 
broadband development, as well as in the nation. He was part of 
a working group on a nationwide basis a few years ago, one of 
only two members from the American Farm Bureau representatives 
to help look at connectivity and data, and other issues that 
are important to precision farming.
    We are very proud that you are here today, and have the 
opportunity to share your expertise with us, and we appreciate 
all that you do for agriculture and look forward to hearing 
your testimony. Welcome to our Subcommittee, and thank you, Mr. 
Chairman and Ranking Member, for allowing me the privilege of 
introducing such a fine individual to you today.
    The Chairman. Well, thank you very much. And certainly, I 
want to say, Mr. Hurst, to please give this Committee's warmest 
regards to your President, Mr. Zippy Duvall. Please do that. He 
is a good friend of ours.
    Thank you all for those introductions. We will now proceed 
to hearing from our witnesses. Each of you will have 5 minutes. 
When 1 minute is left, the light will turn yellow signaling 
time is close to expiring.
    Mr. Hengel, please begin when you are ready.

STATEMENT OF DAVID HENGEL, EXECUTIVE DIRECTOR, GREATER BEMIDJI, 
                       INC., BEMIDJI, MN

    Mr. Hengel. Chairman Scott, Ranking Member Scott, and 
Subcommittee Members, it is a great honor to be testifying 
today. I am Dave Hengel, Executive Director of Greater Bemidji 
in Bemidji, Minnesota, a public-private partnership formed to 
drive development and promote prosperity in our region. We have 
three staff people and an operating budget of $300,000, a 
majority of which is provided by private businesses. I recently 
completed my 30th year in economic development.
    Bemidji is a rural regional center located 200 miles north 
of Minneapolis. With 65,000 residents, it is one of Minnesota's 
fastest growing areas, but it is also one of Minnesota's 
poorest. Over the past 7 years, we have created 1,700 jobs and 
wages have grown 26 percent, yet one in five of our residents 
still live in poverty. Despite a historic low, our unemployment 
rate remains higher than the national average.
    The economic development world has changed dramatically in 
recent years, the primary driver of which has been broadband. 
Broadband can level the playing field between urban and rural 
as never before.
    In the past, our nation has made bold decisions to ensure 
our rural areas are competitive: from ensuring access to 
telephone services, to building the interstate highway system. 
I believe broadband is the interstate highway system of our 
generation. Without strong broadband, rural communities will be 
left behind.
    National policy has called for telecom services in rural 
areas to be comparable in both price and quality to urban 
areas. If rural America is to play a role in the global 
economy, it is essential that national commitment remain.
    Bemidji has been blessed. Our rural telephone cooperative, 
Paul Bunyan Communications, took a visionary approach of laying 
one of the nation's largest all-fiber networks. As a result, 
nearly every home, every farm, and every business in our region 
has access to gigabyte broadband. Moreover, MidCo, a private 
regional provider serving the upper Midwest, also provides 
high-speed broadband services to the Bemidji area. With these 
two leading-edge companies serving our community, our broadband 
services rival any in the nation.
    Drawing on my experience in economic development, I believe 
broadband's economic impact is especially significant in the 
following areas; first, in corporate recruitment efforts. For a 
majority of my career, when companies considered our region, 
they would focus on three things: access to cheap land, cheap 
capital, and cheap labor. Now they look to access talent, 
quality of life, and availability of high-speed broadband.
    Delta Dental is our most recent example. They are 
constructing a new $15 million operation center in Bemidji, 
creating 165 very good paying jobs. They chose Bemidji in large 
part due to the broadband services offered by Paul Bunyan 
Communications. Their leadership shared: ``The broadband 
services we can get in Bemidji are far superior to what we can 
get in our corporate headquarters in downtown Minneapolis'' 
They are just one example of broadband playing a central role 
in our corporate recruitment and expansion efforts.
    Second, high-speed broadband is essential to winning the 
race to talent. In today's labor market, companies are looking 
to locations that have a quality of life to entice the best 
employees. As baby boomers retire, companies are investing in 
locations that appeal to the younger generation, for which 
high-speed broadband is a must-have. They simply will not live 
in a community that does not allow them to be connected.
    Finally, high-speed broadband is central to our efforts to 
support emerging entrepreneurs. Three years ago, Greater 
Bemidji opened the LaunchPad, a one-stop shop for 
entrepreneurs. We provide co-working space, business 
assistance, finance, training, peer-to-peer networking, and 
mentoring. The most important resource we provide our 
entrepreneurs is gigabit broadband, which allows them to be 
connected to the world. Our LaunchPad has successfully launched 
51 new startups.
    I am not an expert in broadband policy or deployment, but I 
can testify to the impact high-speed broadband can have on the 
economy. For rural communities to be competitive, they must 
have the infrastructure to support the transforming economy. 
Historically, the infrastructure we focused on was great roads 
and highways, waters and sewer systems, and industrial parks. 
Those are equally important today, but they simply are not 
enough. High-speed broadband is now essential for rural America 
to compete.
    Because of bold decisions made by broadband leaders in my 
region, my community has a gold standard of high-speed 
broadband services. The impact has been clear. Companies are 
choosing our area over other potential locations; young, 
talented people are moving to our region; and businesses are 
starting up at an unprecedented rate.
    I encourage you to do all you can to help other parts of 
rural America reap the same benefits we have felt in Bemidji. 
Thank you.
    [The prepared statement of Mr. Hengel follows:]

    Prepared Statement of David Hengel, Executive Director, Greater 
                       Bemidji, Inc., Bemidji, MN
Introduction and Background
    Chairman Scott, Ranking Member Scott, and Members of the 
Subcommittee, thank you for this opportunity to testify today on the 
essential role of high-speed broadband in fostering rural economic 
development. I am David Hengel, Executive Director of Greater Bemidji 
in Bemidji, MN--a public-private partnership created to drive 
development and promote prosperity in the greater Bemidji region. 
Greater Bemidji has three staff and an annual operating budget of 
$300,000--a majority of which is provided by 70+ businesses in our 
region. I just completed my 30th year in economic development--first at 
a regional level at the Headwaters Regional Development Commission, and 
now as the Executive Director of Greater Bemidji.
    Bemidji is the regional center for the lakes and pines country of 
north-central Minnesota. Surrounded by three Native American 
reservations, our economy is dominated by health care, retail sales and 
services, and tourism--with a very modest manufacturing base. With an 
area population of 65,000 residents, it is Minnesota's fifth fastest-
growing community and yet also one of its poorest. Over the past 7 
years, our population has increased by 2,000 people with over 1,700 new 
jobs, wage levels are up 26.5 percent, and overall economic activity 
has increased over 25 percent. Despite the growth, incomes typically 
range from 65-70 percent of the state and national averages and over 20 
percent of Bemidji area residents live in poverty. Despite currently 
being at a historic low, our unemployment rates still exceed both the 
state and national averages.
    Greater Bemidji's mission is to help drive the positive economic 
numbers even higher, and high-speed broadband is intricately woven into 
our economic initiatives. Greater Bemidji has earned a reputation in 
Minnesota as an innovator in economic development through the success 
of our industry-led training center--the Minnesota Innovation 
Initiative--that provides timely, relevant, cost-effective 
manufacturing training to job seekers. In only 4 years, the initiative 
has trained well over 1,000 job seekers, 80% of whom have been placed 
in good jobs in our region. Another successful economic development 
innovation was the creation of Greater Bemidji's LaunchPad. The 
LaunchPad is a one-stop-shop for entrepreneurs, providing the co-
working space, technical support, financial support, business planning, 
peer-to-peer mentoring and one-on-one mentoring they need to start 
their businesses. In its 3 year existence, the LaunchPad has spun off 
51 new companies.
Broadband Has Been a Critical Component of Our Economic Development
    The world of economic development has changed dramatically in the 
last 5 years. Technology, and more specifically broadband, has been an 
essential part of our strategy and our success. Broadband has the 
potential to level the playing field between urban and rural as never 
before in history. One could even say that there are two kinds of rural 
regions in the U.S.--those that have the broadband infrastructure to 
compete in our new information and innovation economy, and those that 
do not.
    In the past, our nation has made bold decisions to ensure our 
nation's rural areas are competitive--from ensuring everyone has access 
to telephone services to building the interstate highway system. Based 
on my experience, broadband is the ``interstate highway system'' of our 
generation. Without a strong, fiber backbone, rural communities will no 
doubt be left behind.
    Thankfully, national policy calls for telecom service in rural 
areas to be reasonably comparable in quality and price to what is 
available in urban areas. Based upon this policy, the Federal 
Government has recognized that broadband is an essential service by 
providing support for the construction and ongoing operation of rural 
networks through programs overseen by the Federal Communications 
Commission (FCC) and the U.S. Department of Agriculture (USDA). If 
rural America is to have any hope of playing a role in the global 
economy, it will be essential to ensure that these programs are 
positioned for the future to provide predictable, reliable support to 
operators committed to providing high-speed broadband in sparsely 
populated areas where there is no business case for telecom service 
otherwise.
    Moreover, Minnesota has a state broadband office called the Office 
of Broadband Development that is the envy of other states. The 
Minnesota Office of Broadband works in concert with the Federal 
programs to support robust broadband deployment in rural areas and 
develops reliable broadband availability maps to ensure that the 
government resources are distributed efficiently and with maximum 
effectiveness. Even with the available Federal and state resources, a 
rural area still needs a broadband provider that is committed to 
serving the area with reliable, robust broadband.
    Bemidji has been blessed. Our rural telecommunications cooperative, 
Paul Bunyan Communications, took the bold and visionary approach of 
laying one of the nation's largest all-fiber broadband networks in the 
nation. As a result, nearly every home, farm or business in our region 
has access to gigabit upload and download broadband speeds. The 
broadband services we have in Bemidji and surrounding rural areas rival 
any in the nation, and they come at affordable prices. Why? Because 
Paul Bunyan Communications understands the impact broadband will have 
on the economic development of its region.
    Paul Bunyan Communications is not alone in providing exceptional 
broadband services in our region. MidCo, a regional broadband provider, 
serves the upper Midwest and provides high-speed broadband services in 
parts of the Bemidji area. Having two leading-edge companies serving 
our rural community is certain not typical.
    Drawing on my experience in rural economic development, I've 
observed that broadband's economic impact in rural areas is especially 
significant in the following three areas:
Corporate Recruitment and Business Expansion
    Recruiting companies and corporate expansions to an area is an 
ongoing mission for any economic development office. For the first 
twenty years of my career, when a company was considering our region, 
they would focus on three things: access to cheap capital, cheap labor 
and cheap land. Today, when I'm recruiting companies to Bemidji, I'm 
asked different questions: (1) Can I find the talent I need?; (2) Is 
Bemidji a great community to live in?; and (3) Does the region provide 
the broadband infrastructure to support my company?
    Delta Dental is our most recent success story. Delta Dental is 
currently developing a new, $15 million operations center in Bemidji 
that will employ 165 residents at wages significantly higher than the 
average wage in the region. Delta Dental chose Bemidji in large part 
due to the fiber broadband infrastructure offered by Paul Bunyan 
Communications. When announcing their decision to expand in Bemidji, 
Delta Dental's head of technology said, ``the broadband services we can 
get in Bemidji are far superior to what we can get in our corporate 
headquarters in downtown Minneapolis.'' Delta Dental is not alone, as 
our area's broadband infrastructure has been central to several 
corporate recruitment and expansions in our region.
Winning the Race for Talent
    Increasingly, economic development is a race for talent, not a race 
for companies. In a tightening labor market, companies are expanding in 
places that have the quality of life and amenities that provide them 
the ability to recruit the best employees. As we baby boomers look 
toward retirement, companies are investing in communities that appeal 
to the younger generations for whom high-speed broadband is a ``must 
have''--they simply will not move to or stay in a community that does 
not allow them to be connected to the rest of the world.
    Bemidji's recent growth is certainly due in part to our natural 
amenities, Bemidji State University, our vibrant downtown, and our 
expanding arts and cultural scene. But there can be no doubt that we 
would not have grown at the rate we have without our broadband 
infrastructure.
Start-up Communities
    Finally, economic developers are increasingly focused on creating 
what we call ``start-up communities.'' Great start-up communities focus 
on ensuring their area has the foundational resources to help 
entrepreneurs start and prosper. Typically, anywhere from 50-70 percent 
of new jobs are created by local entrepreneurs.
    Greater Bemidji dove into start-up community work 3 years ago with 
the opening of our LaunchPad, a one-stop-shop for entrepreneurs that 
includes access to technical and business assistance, financial 
support, training and peer-to-peer networking. To date, 51 new 
companies have been supported by the LaunchPad. My personal favorite 
service at the LaunchPad is what we call ``Office Hours'', where 
retired CEOs from throughout the region provide free, one-on-one 
mentoring to aspiring entrepreneurs. The LaunchPad also provides co-
working space, where at any one time 50 young businesses are operating 
their companies.
    The single most important service the LaunchPad offers its 
entrepreneurs is access to gigabit broadband service. Every 
entrepreneur using the LaunchPad today--as well as the 51 companies 
that spun off from the LaunchPad--required access to robust broadband 
services. Unfortunately, during the start-up stage, that broadband can 
be financially out of reach. The LaunchPad connects our rural 
entrepreneurs to the world, but we can only do this because of the 
fiber infrastructure in our region provided by Paul Bunyan 
Communications.
    NTCA--The Rural Broadband Association--the national trade 
association for small, rural broadband providers like Paul Bunyan 
Communications--has its own program designed to highlight innovation 
called Smart Rural Communities that recognizes broadband providers and 
communities that deploy and use robust fiber networks to jumpstart 
economic growth and improve access to first-rate education, healthcare, 
and government services. Paul Bunyan Communications received NTCA's 
Smart Rural Community Showcase award in 2015 for its work in Bemidji.
Rural Economic Development Successes
    In rural areas, as discussed earlier, broadband connectivity 
presents a unique challenge due to geographical barriers--barriers that 
broadband can help break down and overcome. Indeed, in rural and urban 
areas alike, broadband availability and adoption strongly correlates 
with increased economic opportunity and prosperity. A 2016 government 
study found that just 41 percent of adults with household incomes less 
than $20,000 had home broadband access, while 90 percent of adults with 
household income higher than $100,000 had access.\1\ Other studies 
reveal that the availability of broadband services, regardless of 
adoption, added as much as 1.4 percent to the U.S. employment growth 
rate.\2\
---------------------------------------------------------------------------
    \1\ Digital Inequality and Low-Income Households (https://
www.huduser.gov/portal/periodicals/em/fall16/highlight2.html), HUD 
Office of Policy Development and Research (2016).
    \2\ Galperin and Viecens, Connected for Development? Theory and 
evidence about the impact of Internet technologies on poverty 
alleviation (https://annenberg.usc.edu/sites/default/files/2017/03/12/
Galperin_et_al-2017-Development_Policy_Review.pdf), Development Policy 
Review (2017).
---------------------------------------------------------------------------
    Investing in rural broadband has far-reaching effects for both 
urban and rural America, creating efficiencies in healthcare, 
education, agriculture, energy, and commerce, and enhancing the quality 
of life for citizens across the country. A report released in 2016 by 
the Hudson Institute in conjunction with the Foundation for Rural 
Service underscores the nationwide benefits that arise from rural 
broadband; this study found that investment by rural broadband 
companies contributed $24.2 billion to the economies of the states in 
which they operated in 2015.\3\ Of this amount, $8.3 billion accrued to 
the benefit of rural areas, while nearly $16 billion accrued to the 
benefit of urban areas. In addition, better broadband access in rural 
America is helping to drive growth in online transactions--a recent 
survey found, for example, that rural consumers account for more than 
10.8 billion Internet-driven transactions annually, representing 
approximately 15% of the national total.\4\
---------------------------------------------------------------------------
    \3\ The Economic Impact of Rural Broadband (https://
s3.amazonaws.com/media.hudson.org/files/publications/
20160419KuttnerTheEconomicImpactofRuralBroadband.pdf), The Hudson 
Institute, Washington, D.C. (2016).
    \4\ A Cyber Economy: The Transactional Value of the Internet in 
Rural America (https://www.frs.org/sites/default/files/documents/2018-
03/A-Cyber-Economy_The-Transactional-Value-of-the-Internet-in-Rural-
America.pdf), White Paper, iGR (2018).
---------------------------------------------------------------------------
    The benefits of rural broadband, however, go beyond sheer numbers--
it is helpful as well to understand the productive uses of broadband 
and what they mean to those communities that get and stay connected. 
Rural America needs broadband not only to help farmers efficiently 
produce the crops that are sold around the world, but to help rural 
small businesses participate in the global economy and help all rural 
citizens experience the potentially life-changing healthcare, 
educational, and employment benefits of broadband.
    A major benefit of rural broadband, for example, comes in the form 
of distance learning. With a shortage of teachers in many areas of 
rural America, many schools must rely on high-speed connectivity to 
deliver interactive-video instruction for foreign language, science, 
and music classes. For example, one rural South Dakotan teaches Level 1 
and 2 Spanish to over 100 students in over a dozen high schools from a 
small office located on her farm. Her broadband connection enables her 
to instruct hundreds of students who otherwise would not have the 
opportunity to learn Spanish. In Minnesota, Fergus Falls Public Schools 
use a high-capacity connection between the various school buildings 
located throughout the city. This broadband connection enables staff to 
access and share files seamlessly across the network, and supports iQ 
Academy Minnesota, an accredited public-school program offering 
Minnesota students in grades K-12 an innovative, high-quality 
alternative to the traditional learning experience.
    Access to healthcare is a critical issue for rural areas, where the 
lack of physicians, specialists, and diagnostic tools normally found in 
urban medical centers creates challenges for both patients and medical 
staff. Telemedicine applications help bridge the divide in rural 
America, enabling real-time patient consultations and remote 
monitoring, as well as specialized services such as telepsychiatry. A 
small broadband provider in Georgia partnered with the county public 
school system to deploy telehealth equipment to connect the school 
nurses' offices with physicians at a regional hospital. Through this 
partnership, the hospital, the school system, and the rural broadband 
provider facilitate better healthcare for students who might not 
otherwise see a physician in an area where parents can ill afford to 
miss a half or full day of work for a doctor visit.
    High-speed broadband helps first responders foster safer 
communities. The Perham Fire Department in Minnesota serves 164\2\ 
miles and five townships. Relying on broadband and LTE, each volunteer 
firefighter's smartphone includes a mobile app that allows the 
firefighter to view reported fires, use GPS to find the fire's 
location, and confirm the availability of each team member. The app 
also identifies the location of nearby fire hydrants. And in Melrose, 
MN all police department vehicles are equipped with WiFi and GPS, 
providing officers immediate access to data and improving overall 
community safety. The broadband network provided by a small, rural 
carrier also assists local ambulance services with a traffic-signal-
prioritization system to manipulate traffic signals for emergency 
vehicles in transit.
    Finally--in part by improving access to quality healthcare, 
education, and public safety--fast, high-capacity broadband in rural 
areas also creates jobs. In Sioux Center, Iowa, a major window 
manufacturer built a 260,000\2\ plant to employ 200 people. The 
company considered more locations throughout the Midwest, but selected 
Sioux Center in part because the rural broadband provider enabled this 
plant to connect with its other locations throughout the U.S. 
Similarly, in Cloverdale, Indiana, a rural broadband provider met with 
developers and helped bring an industrial park to its service area. 
Powered by this provider's broadband, the facility created more than 
800 jobs in the area. These stories are repeated throughout those rural 
areas with access to robust broadband.
Conclusion
    The title of this hearing is ``Building Opportunity in Rural 
America through Affordable, Reliable, High-Speed Broadband.'' I am not 
an expert in broadband policy or deployment, but I can testify to the 
impact high-speed broadband can have on our nation's economy, 
particularly in rural America.
    For our nation's rural communities to be competitive, they must 
have the foundational infrastructure to support a transforming economy 
that is increasingly driven by technology. Historically, great roads 
and highways, water and sewer systems, and industrial parks were the 
foundational infrastructure for communities. Today, these are as 
necessary as ever before, but they are not sufficient. High-speed 
broadband is now required for rural America to compete.
    As I said earlier, I have been blessed. Because of bold decisions 
made by broadband leaders in our community and surrounding rural areas 
several years ago, my community of Bemidji, Minnesota has the gold 
standard of high-speed broadband service. Since then, the impact has 
been clear and observable. Because Bemidji has gigabit broadband 
service, companies are choosing our area over other potential 
locations. Young, talented people are moving to our region in part due 
to the available high-speed broadband. Finally, we are churning our new 
business start-ups at an unprecedented rate due to the broadband-
focused Greater Bemidji LaunchPad. I would encourage the Congress to do 
all it can to help other parts of rural America reap the benefits we 
have in Bemidji. Thank you.
                               Attachment
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you very much, Mr. Hengel.
    Now, Ms. Mollgaard, we will now hear from you.

  STATEMENT OF NEELA MOLLGAARD, EXECUTIVE DIRECTOR, RED WING 
                      IGNITE, RED WING, MN

    Ms. Mollgaard. Chairman David Scott, Ranking Member Austin 
Scott, and Members of the Subcommittee, thank you for allowing 
me to testify today. I am Neela Mollgaard, the Executive 
Director of Red Wing Ignite, located in the small town of Red 
Wing, Minnesota, nestled along the bluffs of the Mississippi, 
only 50 miles south of St. Paul. We have a diverse economy of 
advanced manufacturing, agriculture, and tourism.
    Red Wing Ignite is a hub and a facilitator of community 
innovation, advancing students, entrepreneurs, and businesses 
to compete in the 21st century economy. That entails a co-
working space, startup support, maker space, and programs to 
prepare our youth for the future workforce.
    We have cold winters, lots of eagles, people who work hard 
and want the best for their kids. And through Ignite, I get to 
help our community stay competitive.
    The City of Red Wing formed a partnership with Hiawatha 
Broadband Communications to invest in broadband infrastructure 
with fiber. That investment has made it possible for the 
stories I will share with you today.
    Red Wing Ignite launched in 2013, leveraging our gig 
network and our partnership with U.S. Ignite, initially 
supported by the White House and the National Science 
Foundation. We are the only rural city in U.S. Ignite's network 
of 28 smart gigabit communities, a program providing tools to 
build smart communities, driving new services, startups, and 
technologies.
    For us, broadband is like electricity. We turn it on and it 
works. Yet, you need more than the gig to grow an economy. 
Rural communities require a different strategy, one that builds 
density of talent, expertise, and resources.
    Ignite is both a physical and virtual hub for innovation. 
Broadband was the essential first step, but so is an 
organization like Ignite, bringing opportunity, exposure, and 
access to students, entrepreneurs, and businesses.
    I would like to share stories highlighting our three focus 
areas. First, growing our talent pipeline. We plant the seeds 
to grow future innovators, the employers of tomorrow. We 
provide leadership to create STEM learning inside and outside 
the classroom, college tech internships, and worksite learning 
by convening schools and manufacturers.
    Tony was a high school senior participating in a tech 
entrepreneur class where students solved problems using 
technology, culminating in the opportunity to pitch to 
investors. Tony said ``I was exposed to people and curriculum 
that heightened my knowledge of coding and entrepreneurism. Now 
I am launching my own startup!''
    Second, advancing entrepreneurs. With U.S. Ignite and 
regional partners, we convened a statewide Ag Tech Challenge to 
solve problems facing agriculture. The winner was Jack Kilian 
with Poultry Patrol, a robot for turkey farms. It collects data 
and may increase the weight, decrease mortality, and Salmonella 
rates amongst turkeys. Kilian said, ``This opportunity gave me 
a reason to explore an idea. With Red Wing Ignite's help, I was 
quickly able to get in contact with investors, customers, and 
mentors. Now I feel confident I can make Poultry Patrol a 
reality.''
    Currently, though, finding turkey farms with broadband has 
been challenging. It is costly for farmers to implement this on 
their own.
    Third, supporting rural innovation. People want to choose 
where they live and bring their careers with them. We have seen 
this locally with people leaving urban areas for the benefits 
of small-town living. In response, Ignite has created a co-
working space, maker space, start-up support, and other 
resources. The strongest network we have, even in the world of 
fiber, is the human network.
    How did we get here? I have one word, collaboration. Red 
Wing Ignite forges partnerships with government, academia, 
corporate partners, and individuals to grow our innovative 
ecosystem. As a result of our work, we were recently one of 
nine communities nationwide selected by the Center on Rural 
Innovation to receive technical assistance funded by the 
Economic Development Administration to support our efforts to 
create an innovation-based economy.
    Through perseverance, we have learned these lessons. 
Communities without broadband are in jeopardy. Broadband access 
alone is not enough for economic vitality. Economic success 
should be evaluated by talent attraction, retention, and 
development, not only the number of new jobs. Public-private 
partnerships are critical for success and sustainability, and 
local champions are needed, because it doesn't happen quickly.
    In closing, the African proverb says it best. ``If you want 
to go fast, go alone, if you want to go far, go together.'' 
This work can't happen in isolation. We want to thank our 
local, state, and national partners.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Ms. Mollgaard follows:]

  Prepared Statement of Neela Mollgaard, Executive Director, Red Wing 
                          Ignite, Red Wing, MN
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Chairman David Scott, Ranking Member Austin Scott, and Members of 
the Subcommittee, thank you for allowing me to testify today.
Introduction
    I am Neela Mollgaard, the Executive Director of Red Wing Ignite, a 
hub and facilitator of community innovation located in the small town 
of Red Wing, Minnesota.
    Red Wing is nestled along the Bluffs of the Mississippi River only 
50 miles from Minneapolis/St. Paul. Red Wing supports a diverse economy 
of advanced manufacturing, agriculture and tourism. Downtown 
preservation efforts have resulted in Red Wing being identified as one 
of the top 25 historic towns to visit in the U.S.A.
    We have cold winters, lots of eagles, people who work hard and want 
the best for their kids. Through Ignite, I get to help keep our 
community competitive.
    We have built partnerships and initiatives with schools, 
government, businesses and nonprofits. We have more than 18 businesses 
and organizations at our co-working space. Last year, we hosted more 
than 150 community and business meetings enhanced with high-definition 
video conferencing facilities. We created and launched a Makerspace in 
partnership with Minnesota State College Southeast. We have also 
recruited and supported almost 40 startups in 2019 alone.
Broadband Infrastructure
    The City of Red Wing was forward thinking and formed a partnership 
with a local provider, Hiawatha Broadband Communication (HBC) to invest 
in broadband infrastructure as an economic growth strategy. That 
investment has made it possible for the stories I will share today.
    To leverage the gigabit network, and our partnership with U.S. 
Ignite (initially supported by the White House Office of Science and 
Technology Policy and National Science Foundation), Red Wing Ignite was 
launched in 2013. We are the only rural city in U.S. Ignite's network 
of 28 Smart Gigabit Communities. U.S. Ignite helps communities expedite 
adoption of services, develop innovative practices that stimulate job 
growth, the startup environment, and real estate investment.
    Broadband is like electricity for us--we turn it on and it works. 
Unlike colleagues still struggling to secure broadband, we can spend 
time maximizing it.
    But you need more than just the Gig to grow an economy. To be 
competitive in a global economy, rural communities require a different 
strategy--one that builds density of talent, people and resources to 
drive innovation.
    Since then, the Red Wing area received two Minnesota Border to 
Border Grants, funds provided by the state legislature, to deploy 
better broadband. These grants are awarded on a competitive basis to 
unserved or under-served communities to help all of Minnesota reach the 
statutory speed goals of 100 Mbps down and 20 Mbps up by 2026. I served 
on the Governor's Task Force on Broadband at this time and had to 
compromise with speed goals, I feel they should have been faster.
    Red Wing Ignite also received a grant from the Blandin Foundation 
to focus on broadband adoption. Blandin supports Red Wing with 
strategic consulting and seed money for broadband-fueled programs. The 
Blandin Foundation introduced us to the Intelligent Community Forum 
(ICF) model. The model measures community competitiveness in the 
broadband economy based on four indicators: ensuring broadband 
infrastructure, developing a knowledge-based workforce, supporting 
innovation, redressing the digital divide, and effectively using 
marketing and advocacy to tell the community's technology story.
    Two years ago, Blandin released a report on five Minnesota 
broadband success stories--including Red Wing and Goodhue County. They 
found that broadband had increased residents' economic benefit more 
than $32 million per year (Or $1,850 annual benefit per household with 
broadband.) Real Estate values had also increased by more than $100 
million.
Recent Accomplishments
    It has taken Red Wing Ignite more than 5 years to build the 
foundation needed for an innovative ecosystem working to advance 
students, entrepreneurs and our business community. Broadband is 
essential but so is an organization like Ignite--bringing opportunity, 
access and exposure to the skills required in the 21st Century economy.
Growing the Talent Pipeline
    We plant the seed to grow future innovators--the employers of 
tomorrow. We provide:

  <bullet> Leadership to create a K-12 career pathways on STEM learning 
        with aligned curriculum and worksite learning to be prepared 
        for future careers. The flight paths focus on four areas: 
        advanced manufacturing, health sciences, business/
        entrepreneurship and human services.

  <bullet> College tech internships, that matches college students from 
        the region with businesses needed technology help to advance 
        their business.

  <bullet> A coder dojo site, is a free, volunteer-led, community-based 
        computer programming clubs for students.

  <bullet> A collaboration with school districts, our college and 
        manufacturers to provide work site learning and a certification 
        through our local college.

    Tony, a high school senior, participated in our tech entrepreneur 
class where students solve problems using technology culminating with 
the opportunity to pitch to investors. Tony said, ``It's cool Ignite 
has brought so many opportunities. I was exposed to people and 
curriculum that heightened my knowledge of coding and entrepreneurism. 
Now I'm actually launching my own startup!''
Advancing Entrepreneurs
    With assistance from U.S. Ignite and regional partners, we convened 
a statewide Ag Tech Challenge seeking new hardware or software to 
improve agriculture. The winner was Jack Kilian, with the Poultry 
Patrol, a robot for turkey farms. The robot collects data and is 
projected to possibly increase weight, decrease mortality and 
Salmonella among turkeys.
    Kilian received $15K in awards and said, ``This opportunity gave me 
a reason to explore an idea. With Red Wing Ignite's help, I was quickly 
able to get in contact with investors, customers, and mentors. Now I 
feel confident I can make Poultry Patrol a reality.''
    Jack Buendor a cofounder also shares, ``Poultry Patrol is focused 
on Giving farmers access to the data collection technologies will 
increase the efficiency of the U.S. agricultural industry and help make 
farming more reliable, sustainable and safe. Everything from watershed 
monitoring, yield estimation, crop health, row alignment, and livestock 
monitoring will need data analysis, and the best ways to reliably 
collect, process, and present that data require through stable 
broadband.''
    Currently, finding turkey farms with broadband has been 
challenging; it's costly for farmers to implement on their own.
Supporting Rural Innovation
    Now and in the future individuals will choose where they want to 
live and bring their careers with them. We have seen this locally with 
people choosing to leave urban areas for the benefits of small town 
living. In response Ignite has created a co-working space, makerspace, 
business incubator and other resources to meet this need.
    The strongest network we have--even in the world of fiber is that 
human network.
How We Got Here
    People ask--how did we get here. I have one word, collaboration.
    Red Wing Ignite forges partnerships with government, academia, 
corporate partners and individuals to grow our innovative ecosystem to 
advance entrepreneurs, businesses and students.
    I'd like to highlight partners that believe in this work: U.S. 
Ignite, Blandin Foundation, City of Red Wing, Goodhue County, MN DEED, 
MN State College SE, Xcel Energy, Red Wing Shoes, Jones Family 
Foundation, and Southern MN Initiative Foundation.
    As a result of our work, we were recently one of nine communities 
nationwide selected by the Center on Rural Innovation to participate in 
the Rural Innovation Initiative, an effort funded by the U.S. Economic 
Development Administration to provide technical assistance and support 
to rural communities working to create digital economy jobs and 
businesses.
    Our strength as an organization is the ability to connect our 
students, entrepreneurs and/or businesses with the needed resources in 
Red Wing, Minnesota or national opportunities. We are continuously 
learning and bringing best practices back to the region, for a lasting 
and sustainable impact.
Looking Forward
    We believe our model will catalyze a regional innovation cluster 
that will strengthen and elevate our region and Minnesota's global 
competitiveness by focusing on three key areas:

  1.  Advance Innovators and Entrepreneurs by creating a hybrid 
            incubator using virtual and in-person education, mentoring 
            with top talent, technical assistance funds, access to 
            investors and individual coaching.

  2.  Enhance Regional Connectivity by convening ecosystem builders and 
            stakeholders in southern MN to implement the Entrepreneur 
            First (E1) Collaborative. Creating a concentration of 
            talent, people and resources to directly benefit 
            entrepreneurs and the organizations serving them by 
            simplifying the way individuals navigate the 
            entrepreneurial ecosystem.

  3.  Cultivate the Workforce of the Future by convening industry, 
            education and workforce development to attract, retain, and 
            develop the talent needed to meet employer demand. RWI will 
            advance students through worksite learning and hybrid 
            courses in high demand, high growth fields.

    Broadband establishes a platform for success that communities must 
have to be able to provide opportunities, access and exposure of 
virtual and physical networks to advance future innovators, 
entrepreneurs and their business.
    Through perseverance we have learned these lessons:

  1.  Communities without broadband are in jeopardy.

  2.  Broadband access alone is not enough for economic vitality. It is 
            critical to grow a knowledgeable workforce, increase 
            digital literacy, foster innovation and market the efforts.

  3.  Measurement of economic success should evaluate talent 
            attraction, retention and development not number of new 
            jobs.

  4.  Trusted partnerships with government, corporate, academic and 
            community partners are critical for success and 
            sustainability.

  5.  Cities and organizations need to look beyond their geopolitical 
            boundaries and proprietary tendencies in support of 
            collaborative, regional economies.

  6.  Perseverance by local champions because it doesn't happen 
            quickly.

    In closing, the African Proverbs say it best, ``If you want to go 
fast, go alone, if you want to go far go together.'' This work can't 
happen in isolation, we thank our local, state and national partners.
    Thank you for the opportunity to testify. I look forward to your 
questions.

    The Chairman. Thank you very much.
    Now, Dr. Hess, please begin your testimony.

    STATEMENT OF DAVID C. HESS, M.D., DEAN, EXECUTIVE VICE 
         PRESIDENT OF MEDICAL AFFAIRS AND INTEGRATION, 
 PRESIDENTIAL DISTINGUISHED CHAIR, AND PROFESSOR OF NEUROLOGY, 
  MEDICAL COLLEGE OF GEORGIA, AUGUSTA UNIVERSITY, AUGUSTA, GA

    Dr. Hess. Thank you. Good morning. First, I would like to 
thank the Chairman, the Ranking Member, Congressman Rick Allen, 
and the Members of this Subcommittee for the opportunity to 
testify today. I am David C. Hess, Dean of the Medical College 
at Georgia. I am here to recount my experiences as a physician 
providing telestroke services in rural Georgia.
    Back in 2004, the early days of telestroke, I was coaching 
a Little League baseball team and I was called about a 45 year 
old man with a stroke at Emmanuel County Hospital in 
Swainsboro, Georgia, a 25 bed hospital in Congressman Rick 
Allen's district. There were only two of us covering our 
telestroke network in those days. The baseball field was 25 
minutes to my home, but only 5 minutes to Taco Bell. I handed 
the scorebook to another dad, jumped in my car, and sped to 
Taco Bell and used their hotspot. I logged in with my password, 
but the camera repeatedly froze when I zoomed in to watch the 
patient move their eyes. The consult was dropped twice, and I 
was starting to sweat, as every second counts in stroke. I was 
finally able to make the decision to administer the drug TPA, 
and fortunately, the patient did well. But it was stressful for 
me, even more stressful than coaching my last place Little 
League team.
    Now, fast forward to April of 2019, where I delivered 12 
telestroke consults in 24 hours to a number of rural hospitals 
in both Congressman Allen's and Congressman Austin Scott's 
district. The cameras never froze and there were no major 
technical issues.
    Three things have changed in the last 15 years. First, the 
bandwidth and technology have vastly improved, and I no longer 
have to drive to Taco Bell, except to eat their tacos. Second, 
demand for telestroke services has increased. Third, I don't 
take calls often, as there are nine others who share the call 
burden.
    Georgia is situated in the Stroke Belt, and there is a 
slide in your handout, a region of high stroke incidents in the 
Southeast United States. In 1996, a drug called tissue 
plasminogen activator, or TPA, was approved for the treatment 
of ischemic stroke by the FDA. The drug works by breaking up 
blood clots that could cause stroke.
    There are two types of stroke. The most common one is 
ischemic, caused by a blockage of blood flow to the brain. The 
other type, hemorrhagic, is caused by bleeding into the brain. 
TPA is effective for ischemic strokes, but can be harmful or 
fatal if given for hemorrhagic strokes. This caused many 
emergency medicine physicians to be very reluctant to use TPA, 
and they require neurologists like myself to assist them in the 
treatment decisions.
    One of the problems is a lack of neurologists in smaller 
hospitals. During a stroke, 32,000 brain cells die every 
second, so every moment matters when administering TPA. To 
address this problem, back in 2002, we in the Department of 
Neurology at the Medical College of Georgia began to developed 
a web-based telestroke system to help treat stroke patients in 
rural hospitals. There was no system available, so we built our 
own. This involved three components: two-way audio video so we 
could see the patient. We could communicate with the family. We 
could read the CT scan, and we had decision support software 
that helped us make the correct treatment decision. It was a 
web-based system, so we didn't have to sit and wait for calls 
in a specific wired room in the hospital. We could be at home 
or anywhere that we could have access to the Internet. We 
called this program REACH. We have now performed over 13,000 
acute stroke consultations in Georgia, and have treated more 
than 1,800 with TPA, many of whom have never been treated with 
TPA. Telestroke has now become the standard of care with the 
American Stroke Association endorsing its use. Studies show 
that telestroke has expanded and improved stroke care in rural 
and super rural areas.
    When we first started REACH back in 2003, we had a lot of 
problems with Internet connections to our rural hospitals. The 
video would often freeze and the consults would be delayed, and 
occasionally dropped. Bandwidth in rural Georgia is certainly 
much better today than it was 10 to 15 years ago, but 
requirements of at least 1.2 megabits will usually be needed 
for seamless operation. We also have improved technologies that 
allow us to operate in low bandwidth environments. We still 
experience problems with the video freezing and downloading 
imaging files. This problem is related to the people and 
resources necessary to adequately manage the bandwidth within 
the hospital.
    Even if rural hospitals have access to broadband, they do 
not have the technology or IT budget. Congressman Scott 
recounted all the rural hospitals closing in Georgia--to 
support the infrastructure inside a facility, much less support 
a full-time IT person. The common example is the hospital guest 
network being allowed to use the same Internet connection as 
the clinical applications. A better-informed professional IT 
manager can set up restrictions on network use to prioritize 
clinical applications.
    Now, current connectivity in rural America is not adequate 
to provide telehealth consults to patients in homes and small 
clinics. Lack of access to physicians is a problem. There are 
eight Georgia counties without any physicians, 11 without 
family physicians, 75 without an OB/GYN, and 78 without a 
general surgeon. This is only likely to worsen as the shortage 
of physicians is getting worse in rural Georgia. Much of this 
monitoring will be done by nurses and advanced practice 
providers, such as nurse practitioners, using tablets, but 
bandwidth is still a limiting factor.
    We have proved this model works with stroke, but 
telemedicine could be used to address many other health needs 
in rural Georgia.
    Thank you very much.
    [The prepared statement of Dr. Hess follows:]

    Prepared Statement of David C. Hess, M.D., Dean, Executive Vice 
      President of Medical Affairs and Integration, Presidential 
  Distinguished Chair, and Professor of Neurology, Medical College of 
                Georgia, Augusta University, Augusta, GA
    Good morning. First, I would like to thank the Chairman, the 
Ranking Member, and all the Members of the Subcommittee for the 
opportunity to testify today. I am Dr. David C. Hess, Dean of the 
Medical College of Georgia and Presidential Distinguished Chair of 
Neurology at the Medical College of Georgia at Augusta University. I am 
here to recount my experiences as a physician providing telestroke 
services, a form of telemedicine, to stroke patients presenting at 
hospitals in the rural Southeastern United States.
    Georgia is situated in the ``Stroke Belt'', a region of high stroke 
incidence in the southeastern U.S. I work at the Medical College of 
Georgia, the only public medical school in the state of Georgia. We are 
the Joint Commission certified Advanced Comprehensive Stroke Center 
that serves patients in rural southeastern Georgia and South Carolina, 
areas that are in the ``buckle of the Stroke Belt''. In 1996, a drug 
called tissue plasminogen activator (TPA) was approved for the 
treatment of ischemic stroke by the Federal Drug Administration (FDA).
    For background, there are two types of stroke--ischemic stroke is 
caused by a blockage of blood flow to the brain and hemorrhagic stroke 
caused by bleeding into the brain. TPA is effective for ischemic 
strokes but can be harmful if given for hemorrhagic strokes. The only 
way for a physician to tell the difference is to perform and review a 
CT scan of the brain. While TPA is very effective for ischemic stroke, 
in about 3% of patients it can cause bleeding into the brain which can 
be fatal. This complication caused many Emergency Medicine physicians 
to be reluctant to use TPA and they required stroke specialists 
(Neurologists) to assist them in making the decision.
    After TPA was approved by the FDA, only about 2% of stroke patients 
were receiving TPA. Nationwide, 64% of U.S. hospitals were not using 
TPA and most of them were small hospitals in the rural South.\1\ There 
was a geographic penalty for stroke care--rural patients in small 
hospitals in the South that were not receiving TPA, the only drug that 
could reduce their chance of being disabled from a stroke.
    One of the problems that led to low usage of TPA was the lack of 
neurologists and stroke specialists in the smaller hospitals to consult 
and help with the treatment decisions. Neurologists and stroke 
specialists tend to work in larger cities like Augusta and Atlanta and 
there were none in rural Georgia. Moreover, the time to treatment with 
TPA is a major determinant of how well the patient does; shorter time 
to treatment equates to better outcomes. Stroke is a ``time sensitive 
disease'' and it is estimated that during a stroke, 32,000 brain cells 
die per second so every second and minute delay matters when 
administering TPA. There is no time for the physician to get in their 
car and drive to a rural hospital. To make a decision to use TPA, the 
stroke specialist needs to see the patient and examine them and also 
review the CT scan of the brain. We would often get phone calls from 
our rural hospitals with questions about treating stroke patients with 
TPA. However, we could not see the patient or review their CT scan of 
the head, thus could not make safe decisions. The problem is that we 
had a very effective drug for stroke, but we did not have a healthcare 
system with the organization and tools to administer it.
    To address this problem, back in 2002, we in the Department of 
Neurology at the Medical College of Georgia began to develop a web-
based telestroke system to help treat stroke patients at rural 
hospitals in Georgia. There was no system available, so we developed 
our own. This involved three components--two-way video (we can see the 
patient and the patient can see us), ability to read the CT scan of the 
brain, and decision-support software that helped us make the correct 
treatment decision and allowed us to complete a note to provide a 
consultation to the physicians at the site.<SUP>2-4</SUP> (Fig. 1) The 
other important feature was that the system was ``site independent.'' 
We did not have to sit and wait for calls in a specific ``wired'' room 
in the hospital. We could be at home or anywhere that we had access to 
the Internet. We called this program REACH (Remote Evaluation of Acute 
isCHemic stroke). After building a prototype and testing it within our 
own hospital, we began a pilot program in 2003 with McDuffie Regional 
Hospital in Thomson, Georgia and Emanuel County Hospital in Swainsboro, 
Georgia. Both these hospitals had administrators, nurses, and 
physicians supportive of the telestroke program. Internet connectivity 
was poor on both ends--the hospital and on our end. For example, if I 
was coaching a Little League game, I would have to drive to the Taco 
Bell and ``use'' their hotspot as that was closer than my home.
Fig 1. REACH Telestroke System
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Patient presents in rural hospital (lower left) Consultation 
        done at home by Stroke specialist (lower right) and patient 
        transferred to Comprehensive Stroke Center (top) after TPA 
        given or if complex care needed.

    We demonstrated that that we could accurately examine the patient 
and measure the severity of the stroke and that we could safely and 
effectively guide treatment with TPA. Once we demonstrated (in the 
medical literature and to our peers) that we could do this, we expanded 
our network to nine rural hospitals over the next few years and now 
serve over 30 hospitals today throughout Georgia and one in South 
Carolina.<SUP>3-4</SUP> (Fig. 2) We have performed over 13,000 acute 
stroke consultations and have treated more than 1800 stroke patients 
with TPA. Most of these patients would have never been treated with TPA 
without a telestroke system.
Fig 2. MCG-AU Health REACH Network
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Red dot is AU Health, Comprehensive Stroke Center. Small 
        yellow dots are small rural hospitals (<50 beds); purple dots 
        are hospitals >100 beds. Large yellow dots are larger hospitals 
        >200 [] beds.

    Telestroke is now used almost everywhere in the nation and almost 
every large health system has a telestroke program. Telestroke has 
become the ``standard of care'' with position statements written by 
expert panels from the American Stroke Association endorsing its 
use.<SUP>5-8</SUP> Telestroke became a disruptive technology that 
changed how we manage stroke patients. Studies show that telestroke has 
expanded and improved stroke care in rural and ``super-rural'' 
areas.\9\
    We have expanded the use of telestroke to include acute 
teleneurology (other neurological conditions beyond stroke) and to 
triage and select stroke patients for mechanical thrombectomy (MT). MT 
uses catheters and clot retrieval devices to mechanically remove blood 
clots from vessels in the brain and this is a life-saving treatment for 
patients with large strokes (blockage of large arteries such as the 
middle cerebral artery.) We currently use telestroke to triage patients 
from all over Georgia and fly them by helicopter to the few 
Comprehensive Stroke Centers (there are four in Georgia) where this 
procedure can be performed.
    In 2006, a group of us licensed the REACH technology through our 
University and in 2006 we founded a company called REACH Health in 
Augusta Georgia. The company later moved to Alpharetta, Georgia, and it 
provided telestroke services to over 150 hospitals in the United 
States, including hospitals in South Carolina, New York, Pennsylvania, 
Louisiana, Massachusetts and Alaska. I was Chairman of the Board from 
2006 to 2018 when the company was sold to InTouch. REACH health is now 
a division of InTouch Health, the leading developer of telestroke 
systems in the U.S. and around the world.
    When we first started REACH back in 2003 to 2004, we had a lot of 
problems with Internet connections to our rural hospitals. The video 
would often ``freeze'' and the consults would be delayed and 
occasionally dropped, and we would have to resort to using the 
telephone. Fortunately, this improved over the years. Access to 
bandwidth in rural Georgia is certainly much better than it was 10-15 
years ago. There are also improved technologies that allow us to 
operate in a low bandwidth environment. This is stated in our 
Scientific Statement on ``Telemedicine Quality and Outcomes in Stroke'' 
from the American Stroke Association and endorsed by the American 
Telemedicine Association \7\ ``The Scalable Video Coding extension of 
the H.264/MPEG-4 Advanced Video Coding standard (H.264/AVC) is the 
latest development for this successful specification, enabling high-
resolution performance at the relatively low-bandwidth environments 
often available at more rural hospital sites. New communication (Web 
Real-Time Communication) and compression and decompression standards 
(VP8) are also emerging that promote the use of a Web browser as the 
primary audio/video platform while maintaining equal or better quality 
at half the bandwidth cost. Accordingly, technological advances on the 
horizon coupled with increasing access to high-speed bandwidth continue 
to accelerate the implementation of telemedicine services. Depending on 
the technology used, bandwidth requirements can range from as little as 
64103 bits per second to in excess of 1.2106 bits per second. 
However, bandwidth >512103 bits per second or closer to 1.2106 bits 
per second will usually be needed for seamless operation. The quality 
of the connection is affected by many factors, including bandwidth 
(connection capacity and speed), distance (which introduces latency), 
network throttling (introduced by network configuration), and 
congestion (hospital systems will be `saturated' at peak times, 
limiting the available bandwidth). The cell structure of mobile 
telecommunications may lead to low bandwidths during peak times of 
mobile Internet use. This becomes an issue in hospitals and busy 
emergency departments where competing for limited bandwidth leads to 
degradation of quality. Other variables affecting the conferencing 
experience include the number of participants in a videoconference, 
video resolution, and video size. Recently developed technologies, such 
as Scalable Video Coding1, provide better performance in low-bandwidth 
environments by making adjustments to frame rate, the area of the image 
to be refreshed, and video quality based on network environment.'' \7\
    However, we do still experience problems with the video freezing 
and downloading imaging files. The problem is related to the people and 
resources necessary to adequately manage that bandwidth within the 
hospital. While most of these hospitals have access to broadband, they 
do not have the technology/IT budget to support much infrastructure 
inside the facility, much less support a full time IT person. The 
common example is the hospital guest network being allowed to use the 
same Internet connection (un-throttled) as the clinical applications. A 
better informed, professional IT manager can set-up restrictions on 
network use to prioritize clinical applications.
    While Internet connectivity is adequate for most of the rural 
hospitals, it is not adequate to provide telehealth consults to 
patients in homes and at small clinic sites in rural areas. Telehealth 
is able to reinvent ``doctor house calls'' and is moving to monitoring 
and consulting with the patient in their home. In addition to 
physicians, much of this monitoring will be done by nurses and advanced 
practice providers. Lack of access to physicians is a problem in many 
parts of rural Georgia. According to the Georgia Board for Physician 
Workforce (https://gbpw.georgia.gov/), there are eight Georgia counties 
without any physicians, 11 counties without a Family Medicine 
Physician, 63 counties without a Pediatrician, 75 counties without an 
Obstetrician-Gynecologist and 78 counties without a general surgeon. 
Just as there are few stroke specialists in rural areas, there is a 
dearth of all types of medical specialists such as cardiologists, 
nephrologists, etc. This is likely to worsen as there is a looming 
shortage of physicians in the U.S. and major shortages in rural areas. 
One of the best ways to address these geographic disparities is through 
the use of telemedicine--to the patient's home and to health clinics.
    There is also another need for stroke care where there is 
insufficient broadband--that is the poor connectivity to ambulances in 
rural areas. There is increasing interest in providing telestroke 
services in the ambulances transporting patients to the hospitals. This 
is presently not feasible in many rural areas.
    Thank you again for the opportunity to testify before the 
Committee. I am available to answer any questions you may have.
[Endnotes]
    1. Kleindorfer D., Xu Y., Moomaw C.J., Khatri P., Adeoye O., 
Hornung R. US geographic distribution of rt-PA utilization by hospital 
for acute ischemic stroke. Stroke 2009; 40: 3580-4.
    2. Hess D.C., Wang S., Gross H., Nichols F.T., Hall C.E., Adams 
R.J. Telestroke: extending stroke expertise into underserved areas. 
Lancet Neurol. 2006; 5: 275-8.
    3. Wang S., Gross H., Lee S.B., et al. Remote evaluation of acute 
ischemic stroke in rural community hospitals in Georgia. Stroke 2004; 
35: 1763-8.
    4. Wang S., Lee S.B., Pardue C., et al. Remote evaluation of acute 
ischemic stroke: reliability of National Institutes of Health Stroke 
Scale via telestroke. Stroke 2003; 34: e188-91.
    5. Schwamm L.H., Audebert H.J., Amarenco P., et al. Recommendations 
for the implementation of telemedicine within stroke systems of care: a 
policy statement from the American Heart Association. Stroke 2009; 40: 
2635-60.
    6. Schwamm L.H., Holloway R.G., Amarenco P., et al. A review of the 
evidence for the use of telemedicine within stroke systems of care: a 
scientific statement from the American Heart Association/American 
Stroke Association. Stroke 2009; 40: 2616-34.
    7. Wechsler L.R., Demaerschalk B.M., Schwamm L.H., et al. 
Telemedicine Quality and Outcomes in Stroke: A Scientific Statement for 
Healthcare Professionals From the American Heart Association/American 
Stroke Association. Stroke 2017; 48: e3-e25.
    8. Wechsler L.R., Tsao J.W., Levine S.R., et al. Teleneurology 
applications: Report of the Telemedicine Work Group of the American 
Academy of Neurology. Neurology 2013; 80: 670-6.
    9. Zhang D., Wang G., Zhu W., et al. Expansion Of Telestroke 
Services Improves Quality Of Care Provided In Super Rural Areas. Health 
Aff. (Millwood) 2018; 37: 2005-13.
                               Attachment
REACH Network
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

REACH Hub & Spoke Telestroke Model 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Hess D.C., et al. Lancet Neurol. 2006; 36: 5:275-8.
       [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
       
The Two Georgias: Rural Health Care
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you, Dr. Hess.
    And now we will hear from Councilwoman Watahomigie-Corliss. 
Please proceed.

 STATEMENT OF HON. OPHELIA WATAHOMIGIE-CORLISS, COUNCILWOMAN, 
                   HAVASUPAI TRIBE, SUPAI, AZ

    Ms. Watahomigie-Corliss. Good morning. Thank you, Chairman 
Scott and Ranking Member Scott, for the invitation to speak 
today. My name is Ophelia Watahomigie-Corliss. I am a member of 
the Havasupai Tribe. I am here in my official capacity as an 
elected leader. During my first term, I established a working 
relationship with MuralNet to help the community bridge the 
digital divide.
    The Havasupai Reservation is the most isolated American 
Indian Tribe in the lower 48 states. The Village of Supai is 
located on the floor of the Grand Canyon, where the only way in 
or out is an 8 mile hike by foot, horse, or helicopter. 
Currently, the village receives Internet access by microwave 
point-to-point radio link providing 10 megabits for Tribal 
administration. Using an email browser and submitting grant 
reports have been the most successful use of that SM system. 
The current health clinic, run by the Indian Health Services, 
has obtained 1.5 megabits for its electronic medical records. 
Doctors lose the connection and file, refusing to use the 
electronic system, choosing paper charts instead.
    In 2015, Coconino Community College partnered with the 
Tribe to establish the first GED program. The only available 
Internet was in the village center. Many of the students had 
jobs, and lacking home Internet access that year, the program 
had no graduates. To help bridge the homework gap the GED 
students experienced, the Council gave permission in 2017 to 
pursue high-speed Internet through private LTE network. 
MuralNet and the Tribe filed a request with the Federal 
Communications Commission for a special temporary authorization 
permit to use educational broadband service spectrum over the 
Village of Supai under its educational burden of proof 
guidelines. Within 5 days of the license approval, we received 
customer premises equipment for homes and established our first 
high-speed Internet connection. Things changed with the newly 
approved STA permit. CPEs could connect to Internet at home. 
Our Head Start teachers came into compliance with new OHS 
standards, and teachers at our local Bureau of Indian Education 
School could lesson plan, research, and do continuing education 
from their homes.
    In September 2018, our GED students signed onto their first 
live math class taught 168 miles away. This was a historical 
moment in 2018, because it marked the Tribe's first 
opportunities in online education.
    While we have had successes, we have more needs. The 
Tribe's BIE school only goes to 8th grade. To receive a high 
school diploma, students must leave their families at 14 years 
old to attend a boarding school out of state. A percentage of 
these children are unable to adjust to leaving their families 
and return to the village, never going back to their studies. A 
Credit Recovery Program and online education school are needed.
    Over the years, agencies have supplied us with failed 
telemedicine equipment. Telemedicine is important because of 
our isolation, and we are still living without this capability. 
Our community is suffering from a suicide cluster, and we are 
left with no in-person professional services for up to 3 weeks 
every month. The reservation sees 35,000 tourists a year. We 
need better emergency communications to the furthest gorge. 
Their safety is our responsibility. Navigating the canyon can 
sometimes be a life or death situation, and for these reasons, 
the Havasupai Tribe must move forward with upgrading this new 
pilot network. Seven homes in the village center with direct 
line of sight have broadband speeds. The planned network 
expansion will bring broadband coverage to the whole village. 
To make our network financially sustainable, Internet access 
can be sold to tourists in the campgrounds. The Tribe has 
decided its people deserve the opportunities afforded by 
broadband. The ruralness and population size of our community 
means there is no return-on-investment from outside Internet 
service providers or major telecoms to consider building the 
infrastructure. The benefits we have seen from this project are 
like none we have ever seen before. There is renewed hope in 
the community and among Tribal council that online education 
opportunities can become reality. Telemedicine can work to help 
improve the community's health.
    These services ordinary Americans have been using for the 
past 20 years are still not a reality for my community. These 
disparities may be among the most extreme, but the disparities 
of the digital divide are felt across Indian Country. I support 
monies specifically allocated to rural American Indian Nations 
within the funds being negotiated. I can only speak to what my 
expertise is, which is my community, the most isolated and 
rural Tribe in the lower 48 states, which is the story of 
American Indian Country. If my story and expertise can also 
expand into other parts of rural America to help your decision-
making to support build-out for all rural America, then I am 
honored. Now you have the ability to help communities like us, 
and I know that you will.
    I will be honored to address any questions the Committee 
might have of me. Thank you for your time.
    [The prepared statement of Ms. Watahomigie-Corliss 
follows:]

 Prepared Statement of Hon. Ophelia Watahomigie-Corliss, Councilwoman, 
                       Havasupai Tribe, Supai, AZ
    Chairman Scott and Ranking Member Scott:

    Good morning. It is very exciting to be asked to come speak about 
the topic of Broadband Opportunity in Rural America through Affordable, 
Reliable, and High-Speed Broadband. My name is Ophelia Watahomigie-
Corliss, I am a member of the Havasupai Tribe, and I am currently 
serving my second term as a Tribal councilwoman. I am here in my 
official capacity as an elected leader of the sovereign Havasupai 
Nation. I also serve as the telecommunications lead among my Tribal 
Council colleagues. Within this testimony I will tell you about my 
Tribes' inability to participate in online education opportunities 
until 2018 and how our children must leave their families and canyon 
home in order to obtain a high school diploma at age fourteen. My 
community had been promised working telemedicine for the past fifteen 
years and yet agencies have failed every time to execute their 
promises. Finally, in partnership with MuralNet, we built our own 
Havasupai pilot network that was successful in bringing high-speed 
Internet to homes for students and teachers, which has pushed the Tribe 
to find ways to provide broadband to the rest of our community.
    The Havasupai Reservation is the most isolated American Indian 
Tribe in the lower 48 states. The village of Supai is located on the 
floor of the Grand Canyon where it supports a population of 398 
residents, and when the children return home from boarding school the 
number increases to 423. Our home is surrounded by mile high red rock 
cliffs and mesa tops that surround Supai Village. This scene is very 
similar to what you see at the Grand Canyon National Park, which was 
our ancestral home. Our village and canyon are important links to our 
traditional way of life. The only way in or out of our canyon home is 
an 8 mile hike by foot, by horse, or our public transportation via 
helicopter which runs two to four times a week, depending on what time 
of year it is. All packages sent through the United States Postal 
Service are still delivered by mule trail mail to area code 86435. Even 
after you make it up and out of the canyon, the nearest two towns are 
67 miles away by car. My home, I am sure, qualifies under the 
definition of rural.
    Within the first 100 days of my first elected term, I responded to 
a letter from Northern Arizona University, and soon established a 
working relationship with the nonprofit organization MuralNet. This was 
the first project I ever presented to Tribal Council and it was not 
easy. MuralNet had promised to help the community bridge the Digital 
Divide. My fellow colleagues were somewhat apprehensive and proceeded 
to inform me of the many agencies that had already promised to bring 
telemedicine into the community, and failed. I seemed enthusiastic 
enough that they were eventually willing to give the project a chance.
    Initially, around 2008/2009, the village received Internet access 
from Niles Radio Communications by microwave point-to-point radio links 
producing 3 Mbps connection speeds at our access point in the village. 
In 2010 the access point was upgraded to receive up to 5 Mbps, and 
lastly upgraded in 2013 to receive a total of twenty Mbps. Using a 
Subscriber Module (SM) system the twenty Mbps were available and were 
split down the middle to provide 10 Mbps for Tribal administration, and 
10 Mbps for a public network. The Tribe runs twenty-four departments 
year-round, which means at least thirty-two computers were signed onto 
a 10 Mbps system at all times, constantly competing for bandwidth. Our 
capabilities were far from high-speed usage. Using an email browser and 
submitting our grant reports online were the most successful use of our 
SM system but our Tribal departments were still unable to sign onto and 
interact with webinars, which were becoming the expected norm.
    The 10 Mbps that are allocated for public use was available for 
portable devices such as phones and tablets. It catered to the 
community and the 35,000 tourists that come down to visit our world-
famous waterfalls annually. The public network was only available 
within a 30 yard radius from the computer room that housed our network 
equipment and access point.
    The current health clinic in Havasupai is run by the Indian Health 
Service, which is a Federal agency who tried to establish their own 
Internet connection, but has only been successful thus far in obtaining 
1.5 Mbps for the use of its electronic medical records system. I have 
reports from many contracted doctors who, after waiting forty-five 
minutes to get into a patient profile, will lose the connection and the 
file. They refuse to use the electronic system and many choose to stick 
with paper charts. There was not enough Internet speed to support an 
electronic medical records system, let alone have the ability to 
establish telemedicine in the canyon. Many organizations have donated 
telemedicine equipment, but the equipment is useless due to low 
Internet speeds.
    Fast forward to 2015 when a local community college tried to 
partner with the Tribe to establish its first GED classes so that 
students could complete their work online and earn their diploma. The 
Tribe did not have the ability to get Internet to the homes of the GED 
students, so they would have to use the Internet in the village center. 
It was a very ambitious project, and many of the students already had 
jobs and wanted to work on their schooling at home, before or after 
work. The program had no graduates that year because it was nearly 
impossible to get their school work done in the allotted time when they 
had no access to the Internet at home.
    MuralNet had promised to help the Tribe bridge the homework gap the 
GED students were experiencing. It was 2017 when the project was given 
permission with a Tribal resolution to move forward to bring in high-
speed Internet via a private LTE network for the entire village. 
MuralNet and the Tribe filed a request with the Federal Communications 
Commission (FCC) for a special temporary authorization (STA) permit to 
use Educational Broadband Service (EBS) spectrum over the village of 
Supai under its educational burden of proof guidelines. We were ready 
to deploy the network by November of 2017, but it took the FCC until 
February 2018 to approve our request. Within 5 days of the license 
approval we received the plug-in customer premises equipment (CPEs) for 
homes and established our first end-to-end high-speed Internet 
connection in the village with thirty Mbps of backhaul. There was 
Internet signal throughout Supai and homes in the center of town with 
direct line-of-site to the antenna tower had broadband speeds.
    During this time, the Tribe was working with its Early Head Start 
and Head Start programs to begin implementing new regulations that had 
been set by the Office of Head Start (OHS) in 2016. OHS was requiring 
all employees to have early childhood learning certificates, 
associate's, or bachelor's degrees depending on their job position, and 
our program had to prove their employees were enrolled in classes and 
on their way to receiving these certificates. This was proving 
troublesome for the Tribe. Although the OHS grants we had funded the 
classes, we did not have enough to pay for the employee's living 
expenses. The closest college to take the required classes would mean a 
hike, saddle ride, or helicopter ride out of the canyon and a 168 mile 
drive on top of that. If we sent them out of the canyon to attend 
school, we would also lose the employee at the Head Start. There are 
online classes, but the old network didn't have the capability to 
stream the videos, and the OHS deadline was getting close.
    Within 10 days of receiving the STA from the FCC, I had developed a 
check out program for the MuralNet CPEs for online educational use. 
Anyone in the community could present to me a printed approval letter 
of any type of online educational classes they would be taking, and I 
would check them out a CPE to connect them to Internet at home. 
Immediately twelve CPEs were checkout out to Early Head Start and Head 
Start teachers who began enrolling in GED classes, and community 
college classes. By the summer semesters, students were able to enroll 
into classes towards their bachelor's degrees. This put both of our 
Head Start programs in compliance with new OHS standards! The teachers 
at our local Bureau of Indian Education (BIE) school were next on the 
list to be provided CPEs for use in their apartments. The teachers used 
the MuralNet CPEs for lesson planning, research for instructional 
activities, continuing education classes, news and email access. These 
first groups of students and teachers were able to confirm how our 
pilot LTE network enabled them to complete their tasks online. They no 
longer needed to stay at the office until 8 p.m. to use the Internet at 
the school to get their work done. They could now work from home.
    The initial 6 month STA license was so successful that the FCC 
granted us an extension in May 2018. The second group to receive the 
CPEs were a group of seven students who were trying to complete the 
second round of GED courses provided by Coconino Community College 
located in Flagstaff, Arizona. The College had developed an interactive 
online class that students had to sign into twice a week and complete 
forty hours of work through online courses in order to earn their 
diploma. Although the CPEs were distributed in the middle of their GED 
course year, we made every effort to accommodate these students so 
could take these classes at home. The first time a class of our 
students was able to sign into the live class was August/September 
2018. Julie Baumgartner from Coconino Community College was teaching a 
math class in Flagstaff Arizona, 168 miles from the GED students. Once 
we successfully signed on, we could see Julie on our computer screens, 
we could hear her asking questions, and she even introduced her 
students in Flagstaff to us. Our Supai students watched her working out 
the problems on the board, and they could interact with the teacher. 
Some of the students were giving her answers to the solved problem on 
the board in real time. This was a historical moment for Supai because 
it was the first online, live, interactive class that had happened in 
the village.
    While we have had successes, we also have more needs. The Tribe's 
current BIE school only goes to the 8th grade, and for our children to 
receive a high school diploma they are expected to up root from their 
families at fourteen years old and attend a boarding school out of 
state. A significant percentage of these children are unable to adjust 
to living life with a family of strangers or in a dorm, and return to 
the village, never going back to their studies. A credit recovery 
program needs to be initiated for these children and a type of online 
high school programming needs to be investigated and initiated to keep 
educational progress sustained.
    There are also health and emergency service needs. For over fifteen 
years, the Tribe has been promised telemedicine services. This means 
over those years many agencies had supplied us with telemedicine 
equipment, all of which has been collecting dust because we lacked the 
high-speed Internet capabilities to run fluid programming. Telemedicine 
is so important because our community members have to stay out of the 
canyon and pay for hotel costs that can sometimes be over $1,000 a week 
when the helicopter only flies on Sunday and Friday in the winter. Our 
community is also suffering from a suicide cluster and sometimes we are 
left with no in person professional services for up to 3 weeks a month.
    The Havasupai Reservation is also home to world famous waterfalls, 
and 35,000 tourists visit the Reservation each year. We do not have 
good emergency communication capabilities to the furthest gorge that 
tourists like to visit, and their safety is our responsibility. 
Navigating the canyon can sometimes be a life or death situation if 
someone gets lost. During July 2017 the Tribe had to evacuate around 
200 people because of flash flooding, which kept the campground closed 
for months. These are some of the reasons the Havasupai Tribe must move 
forward with upgrading the network.
    The Havasupai submitted an application for a permanent license of 
the EBS spectrum A channels in May 2018. However, the FCC had frozen 
all EBS spectrum permanent license applications since 1995. But now the 
FCC is rewriting the rules. After all our initial successes, Tribal 
Council fully supported the MuralNet pilot project and I was sent to 
Washington, D.C. to get the Havasupai Tribe the needed spectrum for our 
future network expansion. With Mariel Triggs, the CEO of MuralNet, I 
met with Members of Congress, their representatives and all of the FCC 
Commissioners' offices, advocating for the need of a permanent license 
for the Havasupai Tribe and for other Tribal nations to be able to 
claim unused and unlicensed EBS spectrum over their lands.
    The success of our pilot project with MuralNet has motivated the 
Tribe to devote a part of its energy to upgrading the LTE Internet 
network. Currently only seven homes in the center of the village with 
direct line of site to the tower have had broadband speeds and homes on 
the outskirts have some connection issues. More and faster Internet 
connections means our network needs more bandwidth, equipment and 
backhaul. The initial investment for MuralNet to complete the pilot 
program was $15,000 in equipment costs and over $20,000 in lawyer fees, 
which is a very low cost to start a network. The planned network 
expansion would bring broadband coverage to the whole village, increase 
backhaul from fifty Mbps to 1 Gbps, provide emergency communications 
throughout the Canyon, connect an online charter high school, and allow 
for telemedicine in the new clinic, which will be beginning 
construction next year. To make our community network financially 
sustainable, high-speed Internet access can be sold to tourists in the 
campgrounds. The capital and network operator training costs are around 
$250,000-$300,000. These actions are being initiated because the Tribe 
has decided its people deserve the opportunities that are afforded by 
broadband. And we will have to do it for ourselves. The ruralness and 
population size of our community means there is no return on investment 
for outside Internet service providers or major telecoms to consider 
building the infrastructure.
    The benefits we have seen from this project are benefits we have 
not been able to realize in the canyon before. There is renewed hope in 
the community and among Tribal Council that online educational 
opportunities can become a reality on the canyon floor. Community 
members can better their lives and their education through future 
broadband expansion in Supai Village. The telemedicine that has been 
promised to the community can finally work and begin to help the 
community's spiritual, mental, and physical health at the new clinic. 
These services that ordinary Americans have been using for the past 20 
years are still not a reality for my entire community, but this is the 
first glimmer of hope we have seen for decades.
    The disparities felt by my community may be of the most extreme 
examples felt by rural Tribal nations, but the disparities of the 
Digital Divide are being felt all across Indian country. It is 
extremely important to allocate funding to rural America, and Tribal 
rural America, to build reliable broadband. If my community has had its 
first opportunities to participate in online education in 2018, then 
there are other communities out there who don't have the capabilities. 
Extremely isolated areas are in desperate need of telemedicine services 
and we still don't have those capabilities. That is an opportunity with 
the monies you allocate to provide us that ability. The Havasupai would 
use the funds to establish the community's first charter school and 
credit recovery programs, which are desperately needed to increase the 
morale of families to earn a better living and give them the 
opportunity to live their best life.
    I support monies allocated specifically to rural American Indian 
Nations within the funds being negotiated to support Building 
opportunity in rural America through affordable, reliable and high-
speed broadband. I can only speak to what is my expertise and that is 
my community, the most isolated and rural Tribe in the lower 48 states, 
which is the story of American Indian Country. If my story and 
expertise can also expand into other parts of rural America and help 
your decision making to support building opportunity for all rural 
America, well then, I am also honored. I ask you to never to forget 
about us again, living at the bottom of the canyon, having had no 
access to online education or telemedicine services. We have felt left 
out and forgotten for decades. Now you have the ability to help 
communities like us, and I know that you will.
    I will be honored to address any questions the Committee might have 
of me. Thank you for your time.
                               Attachment
June 25, 2018

    Hon. Ophelia Watahomigie-Corliss,
    Havasupai Tribal Council,
    Supai, AZ

    Dear Council Member Watahomigie-Corliss,

    This letter serves as an assurance for the use of WiFi routers 
provided by the Havasupai Tribe. First, Havasupai Elementary School 
administration and staff thank the Tribe for the use of the WiFi 
routers located in some of the staff apartments. Second, school staff 
members, including teachers, are able to connect to the WiFi Internet 
for professional and personal access. Staff members use the Internet 
connectivity for the following:

  <bullet> Lesson planning (i.e., Persons, NWEA, NASIS, etc.)

  <bullet> Research for instructional activities

  <bullet> On-line classes for professional development

  <bullet> Personal entertainment (i.e., Netflix, Hulu, news, email, 
        etc.)

    We appreciate the Havasupai Tribe's support in helping make 
Internet access available to our staff. In addition, the access helps 
make living in teacher housing more enjoyable. If you have any 
questions or concerns, please do not hesitate to contact me.
            Regards,
            [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
            
Dr. Maxine Roanhorse-Dineyazhe,
Acting Principal,
Havasupai Elementary School.

    The Chairman. Thank you very much.
    Mr. Hurst, welcome. Please begin.

 STATEMENT OF C. BLAKE HURST, PRESIDENT, MISSOURI FARM BUREAU 
  FEDERATION; BOARD MEMBER, AMERICAN FARM BUREAU FEDERATION, 
                           TARKIO, MO

    Mr. Hurst. Good morning, Chairman Scott, Ranking Member 
Scott, and Members of the House Agriculture Subcommittee on 
Commodity Exchanges, Energy, and Credit. My name is Blake Hurst 
and I am from Atchison County, Missouri. I serve as President 
of the Missouri Farm Bureau and sit on the Board of Directors 
of American Farm Bureau Federation, whom I am representing here 
today.
    Broadband is no longer a luxury; it is a necessity. Rural 
broadband is essential to modern agriculture, the farmers and 
ranchers who grow our food, and for the quality of life in 
rural America.
    I am driving my combine and the phone rings. It is my 84 
year old father who is driving another combine. The 
conversation goes like this. Dad says, ``I just got a call from 
John Deere.'' I said, ``Uh-huh.'' Dad says, ``They said I was 
running out of DEF!'', which is a fuel additive we use. I said, 
``Uh-huh.'' Days says, ``They are watching us!''
    Farming has changed. We used to think that we just grew 
corn and soybeans. Now we generate data, trillions of bits, all 
containing information that can make us more efficient, 
economical, and can reduce our environmental impact. On our 
farm, that data allows us to supply more fertilizer on our most 
productive land, cut fertilizer rates where yield potential is 
less, vary seed populations in real-time across the field, and 
yes, Dad, allows our equipment supplier to monitor our 
machinery, alerting us to potential problems.
    After we collect this data, we must transfer it from our 
machines to the company who writes our prescriptions for 
fertilizer and seed, share it with our partners, who supply our 
seed, and eventually utilize it when making crop insurance and 
other business decisions. Transferring this data, which is 
essential to the future success of every farmer, requires 
access to fast and reliable and affordable broadband.
    My friends in the livestock industry use broadband-based 
programs to monitor the development of each animal, analyze 
markets, make data-driven management decisions, and from 
monitoring feed usage and rations to scheduling delivery of 
animals, livestock farmers use broadband daily to improve the 
efficiency of their operations, and ensure the health of their 
herds.
    While broadband connectivity is critical on croplands and 
ranchlands, rural communities also need broadband for 
healthcare, government services, and educational and business 
opportunities. We still have members who have to travel to the 
nearest fast food restaurant in order to use a hotspot so their 
children can finish their homework. That really is not 
acceptable.
    Broadband is important to rural Americans because we 
deserve the ability to be a part of the larger society as well. 
Current and future generations of rural Americans will be left 
behind without adequate broadband service.
    While most Americans take broadband for granted, 26 percent 
of rural Americans lack access to broadband, compared to only 
about two percent of urban Americans. And we have to use an 
asterisk with even these figures, because the current data and 
maps used to collect broadband coverage are inadequate.
    The ability of the FCC and all other relevant agencies to 
utilize accurate coverage is the highest priority. With limited 
funding and an overabundance of need, more granular and 
accurate maps are critical to successfully target and 
distribute Federal broadband programs. That is why Farm Bureau 
supports the, bipartisan, H.R. 3162, the Broadband Data 
Improvement Act, that would improve the accuracy of broadband 
coverage maps and better direct Federal funds for broadband 
built-out. We say a special thanks to Representatives 
O'Halleran, Kirkpatrick, and Marshall for their support and 
sponsorship of this fine legislation.
    Many of our state Farm Bureaus have engaged with their 
state legislators to improve rural broadband development. We 
helped organize the Missouri Broadband Initiative Working 
Group, which brought together providers, local, state, and 
Federal officials, and end-users of broadband. Many of the 
challenged we identified in Missouri are addressed by the 
changes made in the 2018 Farm Bill, including the high 
deployment costs, delivering technology that will be adequate 
for the future, accountability, mapping, and data collection, 
and meeting technology needs of agriculture.
    Thank you for your leadership in making the necessary 
strides and providing the technology of the future, while 
safeguarding taxpayer dollars. Farm Bureau appreciates the 
Subcommittee's interest in rural broadband, and I am grateful 
for the opportunity to share our perspective with your today. 
We look forward to continuing to work with the Subcommittee in 
advancing the shared goals which I have highlighted here today, 
and I look forward to answering any questions you might have.
    [The prepared statement of Mr. Hurst follows:]

 Prepared Statement of C. Blake Hurst, President, Missouri Farm Bureau 
 Federation; Board Member, American Farm Bureau Federation, Tarkio, MO
    Good morning, Chairman Scott (D-Ga.), Ranking Member Scott (R-Ga.), 
and Members of the House Agriculture Subcommittee on Commodity 
Exchanges, Energy, and Credit. My name is Blake Hurst, and I am a corn, 
soybean, and greenhouse farmer from Atchison County, Missouri. I serve 
as President of Missouri Farm Bureau and sit on the Board of Directors 
for the American Farm Bureau Federation, whom I am representing here 
today. Farm Bureau appreciates the opportunity to provide input on the 
necessity of broadband technology on America's farms, ranches, and in 
our agribusinesses.
A. Introduction
    The American Farm Bureau Federation (Farm Bureau) is the nation's 
largest general farm organization, with nearly six million-member 
families, representing agricultural producers of nearly every type of 
crop and livestock across all 50 states and Puerto Rico.
    Broadband is no longer a luxury, it's a necessity. Rural broadband 
(fixed and mobile) is essential to modern agriculture, the farmers and 
ranchers who grow our food and the quality of life for rural Americans.
    I'm driving my combine, and the phone rings. It's my 84 year old 
father, who is in our other combine. The conversation goes like this:

          Dad. ``I just got a call from John Deere.''
          Me. ``Uh huh.''
          Dad. ``They said I was running out of DEF!'' (A diesel fuel 
        additive)
          Me. ``Uh huh.''
          Dad. ``They're watching us!''

    Farming has changed. We used to think that we just grew corn and 
soybeans. Now we also generate data. Trillions of bits, all containing 
information that can make us more efficient, economical and reduce our 
environmental impact. On our farm, that data allows us to apply more 
fertilizer on our most productive land, cut rates where yield potential 
is less, vary seed populations in real time as we travel across the 
field, and yes, allows our equipment supplier to monitor our machinery, 
alerting us to potential problems. After we collect this data, we must 
transfer it from our machines to the company who writes our 
``prescriptions,'' share it with our partners who supply our seed, and 
eventually utilize it when making crop insurance and other business 
decisions. Transferring this data, which is essential to the future 
success of every farmer, requires access to fast reliable and 
affordable broadband.
    My friends in the livestock industry use broadband-based programs 
to monitor the development of each animal they raise, analyze markets, 
and make data-driven management decisions for their animals. From 
monitoring feed usage and rations to scheduling delivery of animals, 
livestock farmers use broadband daily to improve the efficiency of 
their operations and ensure the health of their herds. Many 
veterinarians communicate lab results through e-mail with livestock 
farmers to get them information on animal health as quickly as 
possible. All the data collected can be compiled into production 
reports which help farmers make more informed decisions about their 
farm and ranch.
    While most Americans take broadband for granted, 26.4 percent of 
rural Americans lack access to broadband.\1\ This is alarming, 
particularly when compared to the only 1.7 percent of urban Americans 
who lack such access.\2\ However, an asterisk must be used alongside 
these figures because the current data and maps used to collect 
broadband coverage is flawed and fails to accurately determine 
broadband access. Farmers and ranchers, who already have seen a drastic 
50 percent decline in net farm income in the last 4 years, must have 
access to fixed and mobile broadband to be more efficient, economical 
and responsive to environmental needs.
---------------------------------------------------------------------------
    \1\ FCC Broadband Progress Report, https://docs.fcc.gov/public/
attachments/FCC-19-44A1.pdf, 2019.
    \2\ Ibid.
---------------------------------------------------------------------------
B. Improvements to Rural Prosperity
Precision Agriculture and Farming Business
    Farmers and ranchers depend on broadband (fixed and mobile) just as 
they rely on highways, railways and waterways to ship food, fuel and 
fiber across the country and around the world. Many of the latest yield 
maximizing farming techniques require broadband connections for data 
collection and analysis performed both on the farm and in remote data 
centers. However, 29 percent of U.S. farms have no access to the 
Internet according to the USDA report, ``Farm Computer Usage and 
Ownership, 2017.''
    America's farmers and ranchers embrace technology that allows their 
farming businesses to be more efficient, economical and environmentally 
sensitive. Today's farmers and ranchers are using precision 
agricultural techniques to make decisions that impact the amount of 
fertilizer a farmer needs to purchase and apply to the field, the 
amount of water needed to sustain the crop, and the amount and type of 
herbicides or pesticides the farmer may need to apply. These are only a 
few examples of the reasons farmers use broadband connectivity to 
achieve optimal yield, lower environmental impact and maximize profits.
    According to USDA's ``A Case for Rural Broadband,'' if access to 
broadband and adoption of digital agricultural technologies matched 
producer demand, U.S. agriculture would realize benefits amounting to 
nearly 18 percent of total U.S. market production, or $64.5 billion 
annually, based on 2017 levels. Farm Bureau's economic team analyzed 
the USDA report and wrote a Market Intel story, ``Unleashing Broadband 
on Rural America Leads to Nearly $65 Billion in Economic Benefits 
Annually.'' The entire Market Intel story is attached as Appendix A to 
this testimony. Some highlights from this analysis include:

  <bullet> Row Crops--The highest rate of adoption for precision 
        technology used to improve yields and reduce costs is in the 
        already highly mechanized row crop sector. USDA estimates 
        connected technologies in row crops could result in a $13.1 
        billion gross benefit annually from next generation precision 
        agriculture.

  <bullet> Livestock and Dairy--According to the USDA's estimates, the 
        livestock and dairy sectors are poised to benefit the most from 
        next generation precision agriculture, with annual potential 
        gross benefits totaling $20.6 billion. The majority of 
        estimated benefits come from the production side and are 
        focused on increased efficiency of animal care.

  <bullet> Specialty Crops--Like row crop growers, specialty crop 
        farmers could also see major gains with the adoption of new 
        production and planning technology. Total annual benefits for 
        next generation precision ag for specialty crops is estimated 
        at $13.3 billion.

    Broadband is important to our businesses in more prosaic ways. 
Farmers and ranchers rely on broadband access to manage and operate 
successful businesses, the same as small businesses do in urban and 
suburban America. Access to broadband is essential for farmers and 
ranchers to follow commodity markets, communicate with their customers, 
gain access to new markets around the world and, increasingly, for 
regulatory compliance. Additionally, our accounting program requires us 
to download the latest tax data to do payroll and prepare our taxes. We 
use broadband to place orders for our greenhouse business and can check 
availability and pricing in real time. We would not be in business 
without access to broadband, and we cannot compete with businesses in 
more urban areas if we don't have connectivity.
Quality of Life
    Rural communities need access to health care, government services, 
and educational and business opportunities. For many rural communities, 
access can only be gained by using broadband services and sophisticated 
technologies that require high-speed connections. There are Farm Bureau 
members who need to take their kids to the parking lot of the nearest 
fast food restaurant to do research papers and complete their homework 
because their house does not have access to broadband. This is 
unacceptable. As more and more primary care physicians and specialists 
leave rural communities, telemedicine has become a necessity to provide 
critical healthcare to our parents and kids. I'm concerned for the 
well-being of my 84 year old father, who still is a full-time farmer.
    I've listed business, health, and educational reasons for 
broadband's importance, but it's also important to rural Americans 
because we deserve the ability to be part of the larger society as 
well. Many families live across town, in another state or possibly 
another country and broadband allow families to connect, even when they 
are miles apart. Broadband allows grandparents to connect with their 
grandchildren through FaceTime and Skype. Streaming videos, using 
social media and participating in popular culture is important for 
social interactions. Rural Americans should have access to the same 
media as our urban neighbors.
    Current and future generations of rural Americans will be left 
behind their fellow citizens if they are without affordable high-speed 
broadband service that enables them to tap into health care and 
education services, government agencies, and create new business 
opportunities.
C. 2018 Farm Bill Modifications
    In the last few years, Farm Bureau members have elevated the 
priority of broadband access and affordability because of its impact on 
their daily lives. Farm Bureau has included rural broadband deployment 
as one of its strategic action issues for 2019 because many of our farm 
families are frustrated with the lack of services available in rural 
America.
    Many of our state Farm Bureaus have engaged with their state 
legislatures to expand rural broadband deployment and have been 
conducting research on the impact of broadband deployment for rural 
communities. Let me walk you through some of the research that the 
Missouri Farm Bureau conducted concerning the deficits in current 
broadband programs provided at the state and Federal level. We helped 
organize the Missouri Broadband Initiative Working Group, which brought 
together broadband providers, local, state, and Federal officials, and 
end-users of broadband. Together, this group identified multiple 
opportunities and challenges to broadband deployment in our state and 
around the country. We now have a state broadband grant program and 
will soon roll out a comprehensive state broadband plan.
    The recent changes in the 2018 Farm Bill made necessary strides in 
providing the technology of the future while safeguarding taxpayer 
dollars. Many of the challenges that we identified in Missouri are 
addressed by these changes, including:

  <bullet> High Deployment Costs: Time and time again we have heard 
        about the high cost of deploying broadband to rural areas. The 
        2018 Farm Bill increased the authorization for broadband 
        deployment from $25 million to $350 million to help facilitate 
        more broadband development nationwide. In addition, the farm 
        bill established a grant program to help providers who are 
        reaching the most rural citizens. It is crucial that these 
        programs are fully funded at the authorized level to help 
        ensure that rural communities can benefit from broadband 
        services.

  <bullet> Delivering Technology of the Future: Prior to the passage of 
        the 2018 Farm Bill, some rural broadband programs did not 
        deliver service that is adequate and scalable into the future. 
        The 2018 Farm Bill focused on ``future-proof'' technology and 
        established benchmarks for broadband services. By giving USDA 
        the authority to set minimum acceptable standards based on the 
        life of the loan or grant awarded, we are ensuring that our tax 
        dollars are not being spent on technology that will be outdated 
        by the time projects are complete.

  <bullet> Accountability: Ensuring judicious use of taxpayer dollars 
        was a priority in the 2018 Farm Bill. Thanks to the work of the 
        House and Senate Agriculture Committees, more safeguards are in 
        place to make sure that the services promised are the services 
        delivered by loan and grant recipients. Prior to this 
        legislation, very few safeguards existed in this regard. It is 
        vital that when Federal programs come into an area to address 
        the lack of access that they do it right the first time.

  <bullet> Mapping and Data Collection: Knowing where adequate 
        broadband services do and do not exist is crucial to crafting 
        sound public policies related to broadband deployment. The 2018 
        Farm Bill made significant progress in streamlining applicant 
        processes and took steps to drill down to more granular data 
        sets in determining where services are being provided. Missouri 
        is fortunate to have been selected for a mapping pilot program, 
        but more work remains on ensuring that the data collected 
        nationwide is accurate and adequately reflects the current 
        needs of our rural communities.

  <bullet> Meeting the Technology Needs of Agriculture: In response to 
        the growing needs of agriculture, the 2018 Farm Bill 
        established the Precision Agriculture Connectivity Task Force. 
        This legislation directs the FCC and U.S. Department of 
        Agriculture to work together to identify gaps in mobile 
        broadband coverage to farmland and ranchland. Then, policies 
        will be recommended to fill 90 percent of those identified gaps 
        by 2025. The legislation is an important step in changing the 
        way the FCC and other agencies think about rural broadband as 
        we strive to build the information infrastructure that modern 
        production agriculture increasingly needs to be successful. 
        Farm Bureau looks forward to participating in the nomination 
        process.
D. Importance of Broadband Mapping to Agriculture
    As efforts to improve access to broadband in rural areas continue, 
the ability of the FCC and all other relevant agencies to utilize 
accurate coverage maps is the highest priority. With limited funding to 
address an estimated $45-$65 billion issue and an overabundance of 
need, more granular and accurate maps are critical to successfully 
target and distribute Federal broadband programs. Currently, the FCC's 
National Broadband Map relies on Census block data to determine which 
areas are served, underserved, and unserved across the country. Census 
blocks are too large in rural and remote areas to accurately target 
broadband investments. If even one household in a given Census block is 
reported by a provider as being served, then the entire block is 
considered served and is therefore likely excluded from eligibility to 
receive Federal funds for rural broadband buildout. There are more than 
3,200 Census blocks across the country that are larger than the 
District of Columbia, and five that are larger than the state of 
Connecticut. In fact, Census blocks larger than 2\2\ miles comprise 
more than 64 percent of the U.S. land area, which means that every 
rural area is impacted by this problem in some way.
    Farm Bureau recommends that more granular data be used to determine 
areas of coverage. Gathering and, equally as important, verifying the 
data to accurately target and distribute the funding is critical to the 
success of broadband deployment for rural America. Adjustments in the 
data collection matrix to develop the mapping will assist in 
identifying areas in rural America where the digital divide is the 
greatest.
    Farm Bureau supports H.R. 3162, the Broadband Data Improvement Act, 
that would improve the accuracy of broadband coverage maps and better 
direct Federal funds for broadband buildout. This bipartisan bill would 
require broadband providers to report data to create an improved 
National Broadband Map that is significantly more accurate and 
granular, an outcome that Farm Bureau policy supports. To improve 
accuracy and granularity, H.R. 3162 includes a three-pronged data 
validation process that focuses on: public feedback, third-party 
commercial datasets and on-the-ground field validation.
E. Broadband Coverage for Croplands and Ranchlands
    We strongly advocate for the inclusion of cropland and ranchland as 
a metric of broadband access. Precision agricultural equipment requires 
reliable, high capacity fixed and mobile broadband connections for data 
collection and analysis performed both on the farm and in remote data 
centers. As more precision equipment becomes available, farmers cannot 
take full advantage of that equipment if they do not have access to 
reliable, high capacity broadband in the field or on the farm.
F. Conclusion
    Farm Bureau appreciates the Subcommittee's interest in rural 
broadband and I am grateful for the opportunity to share our 
perspective with you today. Rural broadband (fixed and mobile) is 
essential to modern agriculture, the farmers and ranchers who grow our 
food and the quality of life for rural Americans. Broadband is no 
longer a luxury, it's a necessity.
    We look forward to continuing to work with the Subcommittee in 
advancing the shared goals, which I have highlighted here today.
                               Appendix A
Unleashing Broadband on Rural American Leads to Nearly $65 Billion in 
        Economic Benefits Annually
https://www.fb.org/market-intel/unleashing-broadband-on-rural-america-
leads-to-nearly-65-billion-in-econom
Market Intel
June 17, 2019
By: Megan Nelson, Economic Analyst
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Credit: Mauricio Lima/CC BY 2.0.
        [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
          Editor's note: the video is retained in Committee file; it 
        can be accessed at: https://youtu.be/6FDl-XjuDro.

    According to USDA's ``A Case for Rural Broadband, (https://
www.usda.gov/sites/default/files/documents/case-for-rural-
broadband.pdf)'' if access to broadband and adoption of digital 
agricultural technologies matched producer demand, U.S. agriculture 
would realize benefits amounting to nearly 18% of total U.S. market 
production, or $64.5 billion annually, based on 2017 levels. The 
report, published by the American Broadband Initiative, analyzes the 
possible economic benefits of bringing e-connectivity to the heartland 
and, more importantly, what needs to be done to make it happen.
    From the way producers store and ship commodities to the way 
consumers purchase their food, the introduction and widespread usage of 
the household refrigerator has irrevocably changed the food supply 
chain system. A similar shift is upon us with the advent of digital 
technology and next generation precision agriculture, resulting in 
ever-increasing productivity with fewer inputs, better market access 
and healthier rural communities. Just as electricity allowed for 
refrigeration, to realize the benefits of this new digital technology, 
high-speed broadband service must be available everywhere.
Figure 1. Annual Potential Gross Economic Benefit of Precision 
        Agriculture Technologies Derived from Broadband
       [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
          Source: USDA.
Benefits
Row Crops
    The highest rate of adoption for precision technology used to 
improve yields and reduce costs is in the already highly mechanized row 
crop sector. USDA estimates connected technologies in row crops could 
result in a $13.1 billion gross benefit annually from next generation 
precision ag. Technology for improved planning, such as microclimate 
modeling, yield monitoring and precision seeding, is estimated to have 
a combined potential annual gross benefit of $4.2 billion, with $1.1 
billion attributable to access to broadband services. On the production 
side of new technologies, the potential is even greater at $6.7 billion 
in possible benefits derived from precision agriculture, with $2.5 
billion attributable to broadband. With an average dependence of 34% on 
broadband services to utilize these new technologies, the key to 
unlocking these significant gains is full deployment and adoption of 
broadband infrastructure. Figure 1 outlines the potential benefits for 
row crop production and planning technology compared to the potential 
attributable to broadband with the percent of technology dependent on 
broadband.
Figure 2. Potential Benefits for Row Crops By Digital Technology Type
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Source: USDA, Farm Bureau calculations.
Specialty Crops
    Like row crop growers, specialty crop farmers could also see major 
gains with the adoption of new production and planning technology. 
Total annual benefits for next generation precision ag for specialty 
crops is estimated at $13.3 billion. With a possible increase of $8.5 
billion, market coordination efforts will likely get the biggest boost 
from the adoption of digital technologies. Of the new opportunities in 
market coordination, direct-to-consumer sales are estimated to post a 
potential annual gross benefit of $6.4 billion, with $3.2 billion in 
potential attributable to broadband. Specialty crop producers can 
shorten the supply chain by utilizing digital platforms. USDA estimates 
a revenue increase of 50% per unit of apples, 649% per unit of salad 
mix and 183% per unit of blueberries. Figure 2 illustrates the 
breakdown of potential financial benefits from next generation 
precision ag and the amount attributable to access to broadband 
services.
Figure 3. Potential Benefits in Specialty Crops from Digital Technology 
        By Business Function
        [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
          Source: USDA, Farm Bureau calculations.
Livestock and Dairy
    According to the USDA's estimates, the livestock and dairy sectors 
are poised to benefit the most from next generation precision ag, with 
annual potential gross benefits totaling $20.6 billion. The majority of 
estimated benefits come from the production side and are focused on 
increased efficiency of animal care. Utilizing Bluetooth technology, 
animal wearables transmit general health data directly to the producer, 
resulting in a 15% reduction in medication per animal, as well as a 
shortening of the cattle finishing process by 4 to 6 weeks. 
Technological advances in general health monitoring alone are estimated 
to generate $8.8 billion in annual gross benefits. Unsurprisingly, as 
poised as producers in the livestock and dairy sectors are to reap 
enormous benefits from next generation precision ag, they are also the 
most dependent on reliable high-speed broadband to enable new 
technological advancements. Figure 3 outlines the potential benefits 
for livestock and dairy compared to the potential attributable to 
broadband along with the percent of technology dependent on broadband.
Figure 4. Potential Benefits for Livestock and Dairy By Digital 
        Technology Type
        [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        
          Source: USDA, Farm Bureau calculations.
Strategies for Action
    As with electricity, the dawn of digital technology has brought an 
unimaginable amount of change to every aspect of our lives. Precision 
agriculture has led to 7.5% fewer people at risk of going hungry in 
developing countries and an up to 80% reduction in the application of 
crop protection tools. However, while new technology is able to inform 
and improve business decision making, without widespread adoption of 
next generation precision agriculture tools and access to broadband 
infrastructure, these benefits cannot be realized.
    USDA has outlined key priorities for strategic action planning 
involving improved broadband deployment, incentivizing innovative 
technologies and creating environments for innovation, strategic 
funding and communication. To bring broadband services to even the most 
remote areas, public and private entities must work closely with 
communities to determine specific needs and challenges. Reducing 
barriers in Federal processes to access government assets is one of the 
cornerstones of the American Broadband Initiative and continues to be a 
focus at the Federal level. The task of actualizing broadband 
infrastructure relies on funding for deployment as well as for new 
innovations that can lead to long-term successes for the entire sector.
Summary
    USDA's report puts the hypothesized potential benefits that 
broadband technology and infrastructure could bring to rural areas at 
$64.5 billion annually. Increasing the availability of broadband to all 
of rural America, coupled with increased precision agriculture adoption 
are estimated to increase the gross economic benefits to row crop 
agriculture by 4%, adding up to $5.9 billion, increasing 19% for 
specialty crops, or up to $8.6 billion, and 7%, or up to $23 billion, 
for livestock.
    One limitation of the report is it does not incorporate the 
implementation costs, which will inevitably be incurred by rural 
residents, service providers and/or state and Federal Governments. As 
such, this report should be seen as a tool to illustrate the potential 
of broadband technology, rather than the only source for future 
investment-related decision-making.
    USDA leaves us with this call to action--spread the word. For the 
full economic benefits of high-speed broadband to be realized 
throughout rural areas, adoption rates of precision agriculture tools 
and next generation technology must be much higher. All potential 
benefits are estimations based on rigorous research; however, producers 
must perform their own cost-benefit analysis to see where these 
emerging technologies fit in their operations.

          Contact: Megan Nelson, Economic Analyst, (202) 406-3629, 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c8a5adafa9a6a688aeaae6a7baaf">[email&#160;protected]</a>, twitter.com/@MeganRNelson1

    The Chairman. Thank you very much, and thank each of you 
for your testimonies. They were very informative and it gave us 
much, much information that some of us were not really aware 
of. And so, we thank you for that.
    Now we go to questions for the Members. Members will be 
recognized for questioning in order of seniority for Members 
who were here at the start of the hearing. After that, Members 
will be recognized in order of arrival.
    And I will start things off. I recognize myself for 5 
minutes.
    Dr. Hess, may I please start with you, because in your 
testimony, you talked about the Stroke Belt, and Georgia is 
right there in the heart of that.
    Let me share with you some of the latest statistics. In 
Georgia, 3.5 percent of adults in Georgia had a stroke in 2018. 
In rural areas, the statistic for Georgia was 6.1, nearly twice 
that average. And it was 8.2 percent in 2017. This is one of 
the reasons I give a health fair every single year in my 
district for each of the 17 years we got here, and we address 
that dearly. We have the doctors and the physicians and all the 
great hospitals, as you may be aware. We have great recognition 
for this health fair, and that is what we address so much.
    Can you explain the increases and decreases of these 
statistics, and also, can you tell us the answer to: are we 
doing something differently year to year, or are stroke numbers 
normally this varied?
    Dr. Hess. Yes, Chairman Scott, those are very good points.
    So, not only is Georgia in the Stroke Belt, but most of the 
coastal plain of the Southeast, so South Carolina, North 
Carolina, Mississippi, Alabama. And it is usually in the 
coastal plain, but it is. There are racial disparities, too. 
African American men have a very high rate compared to whites. 
African American men are the highest, and African American 
women, and then it drops down to white women and men.
    The Chairman. Yes. What would be a rate racially on that? 
That is a very good point. What is the magnitude or the 
differentiation?
    Dr. Hess. Well, it is a ratio of probably between 1.5 and 2 
times as high, but you have to look at age. You have to adjust 
it for age, and the tragedy is, like the patient I talked 
about, 45 years old. In Georgia, in the Stroke Belt, we have 
strokes occurring a decade earlier than other parts of the 
country. Not only are there more strokes, but they are 
occurring in the prime of life. It is not unusual to see a 45 
or a 50 year old person. It is not just elderly people who are 
having strokes.
    And the other thing is the strokes were only the tip of the 
iceberg. I don't want to get too off broadband here, but there 
are a lot of silent strokes that occur that people don't even 
know about. For every stroke you have, there are five silent 
strokes, and that is a big contributor to dementia. A lot of 
this could be--I would rather actually focus on prevention than 
just treating the stroke would be better. It is treatment of 
hypertension is by far and away the biggest bang for your buck. 
We don't have as many programs as we used to have to treat 
hypertension, and a lot of rural patients don't have good 
access to healthcare, and so their blood pressure isn't as well 
treated.
    African Americans have a higher prevalence of hypertension. 
They have more difficult to treat hypertension, and for any 
given level of blood pressure, they have more end organ damage 
like stroke. There are these definite racial differences and 
they tend to be accentuated in rural areas where there is less 
access to healthcare.
    The Chairman. Right. Well, thank you very much for that.
    Ms. Mollgaard, you gave a very interesting saying. You 
said--if I can remember correctly, you said ``If you want to go 
fast, go alone, if you want to go far, go together.'' What did 
you mean by that? Give us an example of what you meant.
    Ms. Mollgaard. Yes, it is an African proverb that I have 
heard and it really resonates with the work that we do on our 
local community level. To do the work that all of us here are 
doing, you need to forge these partnerships with a variety of 
sectors. You have to work with your government. You have to 
work with your schools. You have to work with your local 
businesses to really drive sustainable change in your 
community.
    That quote I like because it might take more time. This 
work is heavy lifting, but when you bring the right people 
together and everyone is at the table, you can make a lasting 
impact for your communities, your regions, your states, and the 
nation.
    The Chairman. Well, thank you very much. I hope you won't 
mind if I use that. I am going to be on television promoting my 
health fair, and I will use that. But I will give you credit. 
That is a great saying.
    Ms. Mollgaard. It was not from me. I just resaid----
    The Chairman. Oh, it is from Africa. Good.
    I now recognize the gentleman from Georgia, Ranking Member 
Scott.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman. I was 
waiting on the good doctor down there to give us a lecture 
about the fact that we go so far as to fry our vegetables, 
fried okra, fried tomatoes, we haven't figured out how to fry 
lettuce yet, but we pretty much fry everything before we eat it 
down there. Certainly, the way we eat, and it is good eating.
    Dr. Hess. Yes.
    Mr. Austin Scott of Georgia. It has an impact on the 
strokes we have.
    I want to focus first, Mr. Hurst, on you. I remember the 
old days of my granddad's 4430, and you pull a broadcast 
spreader, and when you turn the irrigation on, you put just as 
much water on the wet area as you did on the dry area.
    Can you talk a little further--and you mentioned this 
briefly. Can you talk further about how you and your 
colleagues, and the ag industry as a whole, is able to utilize 
broadband on the farm to help reduce the inputs, fertilizer, 
pesticides, water, the way that they help production 
agriculture be more profitable and have less impact on the 
environment, while at the same time having greater yields?
    Mr. Hurst. Well, we keep pretty accurate yield maps as we 
go across the field, and basically we can check the yield for 
down to a few square feet. And it is counterintuitive, but what 
you learn when you do that is to put a little more fertilizer 
on the parts that are green on the map that are of higher 
yields, a little less fertilizer where it is less productive. 
Before, we would use the same amount of fertilizer across the 
field, and it was wasted on places where the soil was thinner, 
was poor. We also do the same thing with seed, higher 
population where we have better capacity for yield. The less 
runoff obviously saves us money, but maybe more important for 
society, it saves the application of chemicals that can cause 
problems when they end up in the wrong place.
    Mr. Austin Scott of Georgia. I would add to the fact that 
the machinery today is much more complicated than it was in the 
past, and if you have a problem, my tractor's instruction 
manual is literally on my iPhone. But if I don't have access to 
the Internet, I can't get the information I need.
    Mr. Hurst. Yes, we absolutely use--just Google a problem, 
and if they can't fix it and we have to have a tech come out 
from our dealership, the first thing he does is hook up to the 
Internet to start tracing the codes.
    Mr. Austin Scott of Georgia. I beg to differ. The first 
thing he does is he starts that timer when he leaves the shop 
and they get a pretty penny, as my granddad would say.
    Mr. Hurst. Absolutely.
    Mr. Austin Scott of Georgia. Doctor, you have a 
relationship with Tift Regional Hospital where my father is a 
physician. I know I have talked with him many times in the 
past, him as an orthopedic surgeon and trauma surgeon. Just the 
ability in rural America for a physician to pull up an X-ray at 
their home instead of having to drive to the hospital to look 
at a patient to know if that is something that is an emergency, 
an emergency that requires an operation today, or if it is 
something that the patient is actually better off with a ``wait 
and see'' approach.
    If you could expand a little further on how it is helping 
deliver healthcare into the rural parts of the country, I would 
appreciate that.
    Dr. Hess. Yes. Well, almost any hospital to conduct any 
kind of business has to have broadband now, because you are 
sending images. Like you said, if your father wants to look at 
an image at home or if they are sending images to be read by 
these different teleradiology firms, which may be in Australia 
reading things.
    Mr. Austin Scott of Georgia. That is right.
    Dr. Hess. And so you have to have that to function. The 
trouble is at peak times that bandwidth, there is a lot of 
competition for that bandwidth in a hospital, and that is the 
problem.
    The problem is getting into patient homes, is the other 
problem, and getting into clinics. A lot of times they don't 
have broadband access.
    Mr. Austin Scott of Georgia. I was thinking the physician's 
home.
    Dr. Hess. Yes. Well, the physician's office even can have 
trouble, you are right. I mean, you can have down times. Even 
we sometimes have trouble in Augusta. One of the worst things 
that ever happens is if my cable goes out from a lightning 
storm. Because I do telestroke, we all have backup systems; 
but, we have to have wireless backup systems. You are right. 
Even for physicians trying to conduct business, it is very 
difficult in rural areas.
    In Tifton, where you are, you already recounted the issues. 
And that is probably one of the better places we have seen in 
rural Georgia. I mean, some of the places we see, these 25 bed 
hospitals, they really struggle.
    Mr. Austin Scott of Georgia. Right.
    Dr. Hess. They struggle. I don't know how they do it.
    Mr. Austin Scott of Georgia. My time is about to expire.
    I want to say this. As someone who--from Tift County, we 
are very fortunate to have a quality medical community there. 
We also have I-75 and 319 and 82 that come through there, and 
as you know, we have a shortage of neurologists in the area. 
And when we have a neurological incident, if we are not able to 
have the telemedicine--even if you are able to have the 
telemedicine, one of the biggest questions is which way does 
the ambulance go? Does it go to Thomasville? Does it go to 
Macon, or does it head your way? Because in these areas where 
you have so few neurologists, even if the closest hospital--if 
that neurologist isn't there or if that neurologist is in a 
long procedure, the quickest help is sometimes further away.
    Dr. Hess. Yes.
    Mr. Austin Scott of Georgia. And the access to immediately 
know where that patient needs to go in those situations it 
truly is the difference in life and death.
    But thank you for being here.
    Dr. Hess. Yes.
    Mr. Austin Scott of Georgia. Maybe we can have a second 
round of questions.
    The Chairman. Yes. Thank you very much, Mr. Scott.
    And now we will hear from the distinguished lady from 
Minnesota, Ms. Craig.
    Ms. Craig. Thank you so much, Mr. Chairman, and thank you 
to the Ranking Member today for holding this hearing.
    We all know that broadband is the gateway to rural schools, 
businesses, and healthcare providers. I am extremely pleased to 
have Red Wing, Minnesota's own Neela Mollgaard here to share 
the success story of Red Wing, one of the most incredible 
stories of how broadband can transform a community's economic 
future.
    Neela, in your testimony, you mentioned that Red Wing 
Ignite has played a significant role in creating new 
educational opportunities for students in STEM, coding, and 
hands-on internships. How does broadband access expand the 
learning opportunities available to students outside of the 
classroom, and additionally, how does your organization 
collaborate with local school districts to improve those career 
pathways for students?
    Ms. Mollgaard. I am happy to answer, once my microphone is 
on here. Yes. When we launched our nonprofit, we felt we should 
be focusing on our current innovators, the startup community. 
We learned quickly, though, we also need to help the future 
innovators. On our daily work with our manufacturers, with the 
startups we support, and the new next gen technology that we 
see in the nation, we know that there are new skills that are 
needed today, and those are in artificial intelligence and 
cyber security, in coding, in automation, and so, our schools 
and schools all around might not have the capacity or the 
ability to teach those new skills that are needed.
    We work with our partners in our school districts and our 
local college to try to provide those skills necessary for the 
students, whether that be inside or outside of the classroom.
    A couple years ago, we started a STEAM team. We added A in 
there for the Arts. And what we did is we tried to provide more 
learning opportunities for these students with those skills 
that are so needed right now. What we learned, though, is we 
didn't want to do one and done programming. We wanted to do 
sustainable, impactful change. And so, we worked even closer 
with the schools to help provide some leadership to implement a 
new careers pathway at our K-12 system, which will be new 
curriculum and experiential learning for our schools.
    I am pleased to say that out of the four pathways, two will 
focus on technology and science, and the other would be 
business and entrepreneurship.
    Ms. Craig. Thank you for that. You really addressed my 
second question in your answer, because we were talking about 
that as well, because we are looking at how do we make sure 
that your program is aligning Red Wing with the jobs skills 
that are needed in greater Minnesota.
    Can you talk a little bit about just--I know this 
Committee, and I am also on the Transportation and 
Infrastructure Committee--we often talk about how can we make 
sure that people can earn a good opportunity and living where 
they want to live? Please talk a little bit more about the 
entrepreneurship that has been unleashed. It is just stunning 
to me that you have been able to incorporate all of this here 
and in what is just a beautiful Mississippi River town that is 
growing by leaps and bounds.
    Ms. Mollgaard. Yes. We have had some early successes with 
increasing the job market and keeping our community 
competitive. One program I could focus on is our Learn and Earn 
Program. It is one in five pilots in the State of Minnesota, 
working with high school students in high-demand, high-growth 
jobs. We have placed students in manufacturers around us, and 
they not only get a college certification, but work site 
learning. They can choose the path. Is it college or is it 
directly into career? And so, success rates right now, we have 
five students going to a technical college. We have four going 
to a university for engineering, and three got a job 
immediately out of high school for local employers.
    With our startups, too, we are just providing the tools 
needed to be able to advance their business one step at a time 
with tools that they would not automatically have.
    Ms. Craig. Thank you so much. I just want to add that this 
hearing is incredibly important. We are talking about 
broadband, but I hope we all see that through your testimony 
here today, Neela, it takes intentional leadership. It takes 
collaboration to make sure that we reap the full benefits and 
opportunities of the Federal dollars that we are investing in 
these programs.
    Thank you for being here, and with that, I yield back.
    The Chairman. Thank you, Ms. Craig.
    Now, Mr. Baird, you are recognized for 5 minutes.
    Mr. Baird. Thank you, Mr. Chairman, and Minority Member 
Scott as well. I appreciate the opportunity to have questions 
which deal with--my first one deals with telehealth.
    Purdue University's Center for Regional Development has 
conducted numerous studies on a lack of rural broadband and 
social and economic benefits to Americans, and what can be 
gained from increasing that access. Many of you as witnesses 
mentioned those benefits here today.
    In the Wabash Valley Heartland Innovation Network, it is a 
ten county area in my district that includes much of the area 
of about 97,500 people, and they don't have access to 
residential broadband. We have been interested in expanding the 
appropriations that would be involved in improving or funding 
distance learning and telemedicine, and to give better access 
to the equipment that would that.
    Dr. Hess, I would ask you if you would care to elaborate on 
the types of healthcare services that can be--in addition to 
what you work with that might be provided to a patient in his 
or her home, and I am also looking at the kind of equipment 
that works best for that patient in order to receive that 
telehealth and telemedicine.
    Dr. Hess. Yes. One of the biggest needs is telepsychiatry 
and telemental health. It is a huge need. Actually, if you look 
at requests that we get, it is often for telepsychiatry. There 
is a big movement now to develop different platforms, because 
that is a huge need.
    Some of that would be done in clinics. Some of it could 
potentially be done in patient homes. Most of the things in 
patient homes would be more preventative care. In medicine, we 
are not very good at preventative care. We tend to be in a fee 
for service world where the more we do as physicians, we get 
paid. That is just how the reimbursement is set up. But we 
would like to go to a world where we are rewarded and 
reimbursed for preventing disease. But we are not there yet.
    A lot of this can be done, as I mentioned--it doesn't have 
to be--there is such a shortage of physicians now in many areas 
that a lot of this can be done with nurses, nurse 
practitioners. They tend to be very, very good at this, 
developing relationships. You look at patients that have 
complex diseases, chronic diseases like diabetes and 
hypertension, and you focus on them. And a lot of that managing 
can be done by nurses in the home or pharmacists to review 
their medication.
    The other big group is, at five percent, we call them the 
super users. Five percent of patients consume about 50 percent 
of the healthcare resources. They go to emergency rooms. They 
get admitted a lot. And that would be a group to focus on, and 
there has been some movement now to focus on those patients. It 
can't all be done through telehealth. You do need boots-on-the-
ground. You need to touch people. You can't do everything by 
telehealth, but telehealth is a great adjunct, particularly in 
rural areas.
    The other thing is we can provide--specialists tend not to 
be in rural areas, and telehealth is a great way to bring a 
specialist consultation, if not to a patient's home, to a 
community health clinic where they are going. I think it is a 
combination.
    Most of the stuff in a patient home is monitoring for 
diseases you have, so you are monitoring the blood pressure. We 
are not very good at controlling blood pressure. And a lot of 
times, it is because we put people on so many medications, they 
can't keep track of them. I can't take three pills a day. I 
forget. How can we expect our patients to take ten pills a day? 
That is best done by nurses, nurse practitioners, and 
pharmacists. Doctors, we are not too good at that, honestly.
    Mr. Baird. [audio malfunction in hearing room.]
    Dr. Hess. Well, there are a lot of vendors. Our company 
that we sold was mostly focused on more in the hospital base, 
but there are more and more units you can use at the home. They 
are much simpler. They are often--you want to do something with 
an iPad or a computer. There are more and more things you can 
do with an iPad now, but you need the broadband connectivity. 
And on an iPad or a tablet, I should say, you can put a lot of 
patient education. Because, we are not very good also at 
educating our patients. We tend to rush through. We tell them 
we are going to get an echocardiogram. They don't know what 
that is. A lot of that information could be put on tablets that 
they could work with.
    There are a number of systems. I don't want to go through 
all the commercials. There are a number of companies that do 
that; but, if you have the connectivity, you can always find a 
vendor to help you with the technology. The connectivity and 
the human factors are more important than the technology. I 
mean, the technology is almost a commodity. There are many good 
vendors for it.
    Mr. Baird. Thank you very much, and I see I am out of time. 
I wish I had time to ask every one of the witnesses. I have 
questions.
    But thank you, Mr. Chairman. I yield back.
    The Chairman. Well, thank you very much.
    Now we recognize the distinguished lady from Iowa, Mrs. 
Axne.
    Mrs. Axne. Thank you, Mr. Chairman and Ranking Member, for 
holding this important hearing.
    Rural broadband, of course, is essential to modern 
agriculture, small businesses, and rural communities, as so 
many of you are talking about today. And as a Member of this 
Committee and a member of the Rural Broadband Task Force, 
getting our rural communities connected to the Internet so they 
can grow and thrive is definitely one of my highest priorities.
    Iowa ranks among the top ten best states for education, 
opportunity, healthcare access, but it comes in 33rd for 
Internet connection. The FCC defines rural broadband as 25 
megabits per second. As a reference, watching a movie on 
Netflix takes at least 5 megabits per second, and our rural 
communities and farmers, as several of you have pointed out, 
are not sitting around watching TV. Many of the latest farming 
technologies require broadband connections for data access and 
analysis of their fields. Farmers and businesses rely on 
broadband access to manage their inventory, communicate with 
customers, and grow online. Adequate broadband access is 
critical to the success of our rural communities, small 
business owners, and farmers.
    According to the FCC, 26.4 percent of rural Americans lack 
access to adequate Internet speeds, and that is definitely true 
in my district. We don't know how many Iowans are lacking 
broadband access because current FCC maps indicate a much 
higher connectivity rate than actual data from our local 
communications companies. There are large parts of my 
district--and I can tell you this from firsthand experience--
where cell phone service isn't even available, much less 
Internet. And in the areas that do have Internet coverage, 
there can be huge differences.
    For instance, in Red Oak, it is ranked 54th among all Iowa 
cities for Internet connection, but literally just 23 miles 
away in a town very similar in size, Shenandoah, it is ranked 
430th. And even my largest city, Des Moines, has 37 percent 
slower Internet connectivity than the national average.
    I think much of this comes from the disparity of the last 
mile, which is when Internet providers won't extend into the 
areas that they see as unprofitable, often stopping right at 
county lines or just outside the business district, leaving 
rural communities to either foot the bill or not be able to 
compete in a 21st century economy.
    I want to highlight some folks in Montgomery County, Iowa, 
and the important work they are doing, led by Shawnna Silvius, 
the Director of Montgomery County Economic Development. 
Montgomery County is leveraging USDA's new Market Tax Credit 
Program to complete that final mile of connectivity, and when 
they are successful, they will literally be the first county in 
Iowa to have certified fiber optic to every home and business. 
The first in Iowa, and it is 2019.
    When I spoke with Shawnna and Red Oak Mayor Bill Billings, 
Montgomery County supervisors Brian Amos, Mike Olson, and local 
business owners like Kevin Cabbage and Mickey Anderson about 
the economic development that high-speed Internet brings, they 
all shared that connecting our rural communities is critical to 
ensuring our rural communities survive.
    From finding all the right avenues to funding, to 
navigating all the different agencies, the USDA, FCC, 
Department of Commerce, et cetera, our communities have very 
little guidance or assistance. I am really happy to have you 
all here today, because given your experience, you have been 
successful in navigating these broadband issues and helping 
connect your communities.
    I would ask any one of you to comment and give me the 
advice that you have to help communities like mine who are 
either struggling to get started, having trouble finding enough 
funding, or who need to close that last mile gap. Thank you.
    Mr. Hengel. Thank you, Congresswoman. Great questions and 
great comments, by the way. I think your district is similar to 
mine, I would imagine, in what we deal with.
    First off, I want to recognize the fact that there is bad 
data out there, and I think that is important that we gather 
some data.
    We were lucky in my region because we had a cooperative 
that has decided to lay the fiber, because it is part of their 
mission. They believe deeply that economic development and 
community development is part of their mission as a rural 
cooperative. And so, that we are very lucky to do so.
    With MidCo also having a personal interest and as a 
company--the success allowed them to make what would be 
decisions that are beyond what I would say would be business 
case analysis.
    And so, I think that you have to use all the resources you 
can. You have to bring together both the business community as 
well as the education community, the healthcare community, and 
make the case. In Minnesota, we created the Office of 
Broadband, which has provided some leverage funds as well as 
Federal funds, to start reaching that extra mile, which is 
incredibly difficult to get to.
    Mrs. Axne. Thank you. Any other comments?
    Mr. Hurst. Yes, please. Thank you. I live about 20 miles 
south of Shenandoah, so I can certainly agree with the lack of 
broadband in that community.
    Good help in Missouri from rural electric cooperatives and 
other cooperatives. Actually, our broadband comes from a small 
cooperative in southwest Iowa to our farm, and they reach 
across the state lines there. These are really outstanding 
efforts from the cooperatives, and we appreciate that very 
much.
    Mrs. Axne. Thank you.
    The Chairman. Thank you very much.
    The gentleman from South Dakota, Mr. Johnson, 5 minutes.
    Mr. Johnson. Thank you very much, Mr. Chairman.
    For 4 years, I was the Vice President of an engineering and 
consulting firm that worked in rural broadband, and we designed 
and put in place about 8,000 miles of fiber optic network a 
year, did a number of wireless builds as well. And I am not 
sure there was anything more rewarding than seeing the real 
joy, the satisfaction of these communities that were getting 
connected to real gigabit-type networks that they had not had 
access to previously.
    And I was particularly struck when there were traditionally 
underserved communities or subcommunities. And we have talked a 
fair amount today about demographic differences in broadband 
availability.
    I want to shift just a little bit to demographic 
differences in broadband adaptation, or to what extent people 
are actually using the speeds that they can get access to. And 
of course, we often talk about this with regard to age, and so, 
I was just curious for any of the panelists, if you want to 
share from your medical or Tribal or agricultural communities 
stories you may have about getting older Americans connected to 
these resources.
    Dr. Hess. Well, I will just start with one anecdote. We 
were actually going to apply for a P-CORI (Patient-Centered 
Outcomes Research Institute) grant to look at post-stroke care, 
and most stroke patients are elderly. And so, before we did 
that and applied, we were going to use telehealth and actually 
connecting with iPads and smart phones to try to do follow up 
with nurses. We started. First, one of the nurses said, ``Why 
don't you do a survey and see how many elderly Americans with 
stroke have a cell phone or know how to use a cell phone,'' and 
the numbers were disappointingly poor. Most of them didn't have 
access to a cell phone. They may have had a grandchild or a 
child with one, but they weren't necessarily in the house. And 
more than \1/2\ of them didn't know how to use a cell phone or 
how to use a tablet. And they were intimidated by that 
technology. This was only 3 years ago.
    In terms of the health field, when you get to elderly 
people who have a stroke who may already have cognitive 
problems, that can be a problem. You are going to need someone 
in the family maybe to help them. Often the younger you are, 
the more technology adept you are.
    It is an issue with some of our aged patients. That is just 
my anecdote.
    Ms. Mollgaard. I would say also that it is about the 
adaptation, as you speak. It is when individuals can really 
change the way that they work, learn, and live, using this 
technology. They won't substitute it. I mean, why our youth are 
no longer going to go to communities that don't have broadband. 
That will be a requirement for the future, as our youth are 
looking for new homes.
    Once we have the technology and everyone has technology, it 
should be like electricity. Everyone should expect it. It 
shouldn't be some have and have not. Then they can use this new 
technology, provide better healthcare, provide better 
educational outcomes. They will have that adoption rate. It 
will see the value to their day-to-day lives and how they care 
for their elderly parents or improve their own health. And then 
at that point, adoption will really be finalized.
    Mr. Johnson. Maybe for you, Councilwoman, I mean, I would 
imagine dealing with Tribal elders sometimes it is hard for 
them to--when you talked about the increase in the quality of 
life of people using some of these new speeds. But I am sure 
Tribal elders lagged in that access.
    Ms. Watahomigie-Corliss. Mr. Johnson, you are correct. In 
the idea of public health, we are working on some crisis 
response protocols within the community, and we have set up 
kind of a public education guideline and system that we are 
about to deploy in regards to our state Medicaid. Even the 
community themselves don't know what questions to ask when they 
are flown out of the canyon to a regional medical center, and 
we are just now establishing a question card.
    In the idea of a community, Native Americans usually do a 
public outreach and will have a community meeting where we will 
invite the public, and that is where we would start.
    Mr. Johnson. And then for Mr. Hurst, all of my buddies in 
their 30s, 40s, and 50s who are ag producers are using 
technology a lot. My producer buddies who are in their 70s and 
80s, less so. I am sure my experience isn't unique in that way?
    Mr. Hurst. I mentioned my father in the testimony. I kid 
him. He is the only guy, besides drug dealers, that depends on 
a burner phone from Wal-Mart; but, he pays attention to those 
maps, so we are making progress. But there is definitely a 
generational difference.
    The Chairman. All right, thank you very much.
    Mr. Johnson. Thank you, Mr. Chairman.
    The Chairman. You are welcome. We will now recognize Mrs. 
Kirkpatrick, the lady from Arizona, 5 minutes.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman. Thank you for 
having this really important hearing.
    I have been working on expanding rural broadband since I 
was first elected to the legislature in Arizona in 2004. I grew 
up on the White Mountain Apache Nation in Arizona, very remote 
Tribe. When my cousin was principal of the elementary school 
there, she started a computer lab because she realized that 
practically none of the households had computers in their 
homes. And yet, if these kids were not computer literate going 
on to higher education--and a lot of them went off the 
reservation to boarding schools--they would be at a lifelong 
disadvantage. But even that was restricted. They would spend 
maybe an hour or 2 a week in the computer lab, but at least 
they had some exposure.
    I am very concerned about this for our rural areas that 
lack connectivity and that opportunity for our young people.
    I just spent a week with my 2 year old and 4 year old 
grandsons who had their iPads with them the whole time. It is 
second nature to them to use their iPads. But that is not the 
case for a lot of rural students.
    I have hiked down to Supai. It is a beautiful, beautiful 
area, but I just wondered, Ms. Watahomigie-Corliss, how many 
households in Supai have computers in their homes?
    Ms. Watahomigie-Corliss. With our old SM system, we did 
have a public network with 10 megabits, and we did try to 
deploy home modem use. And out of that old system, I would say 
that was around 2010, probably about 20 homes were able to 
receive the modems. But does that mean they have a laptop? It 
mostly means that they have a portable device, which would be a 
cell phone or an iPad.
    Also, in regards to our GED programs that we have been 
trying to initiate, since 2015, that is also the same case. The 
students will ask the Tribe for a laptop because they don't 
have one. Last year, I was only able to get two laptops 
donated. In the same way that I was able to check out the CPEs 
for home Internet use, I also checked out the laptops and 
currently, we only have two.
    I would have to say, Mrs. Kirkpatrick, I would guess of the 
128 homes in the village of Supai, I would guess about maybe 28 
of those homes may have a computer.
    Mrs. Kirkpatrick. Thank you.
    I am going to switch gears a little bit. I have a Veteran's 
Advisory Council, and we just met when I was home last week. 
And we come from--they come from all over the district. I have 
a very rural county, Cochise County, and the veterans depend on 
telemedicine and the Internet to communicate with the VA 
hospitals in Arizona. And I would just like the panel's 
comments on what we can do to improve access for veterans in 
rural America in terms of telemedicine?
    Dr. Hess. Yes, I will take the first stab.
    The VA has actually been at the forefront of telemedicine. 
I mean, they have actually taken the initiative in a lot of 
areas. But, a lot of it depends what division you are in and 
where VA is doing it. I know there are some--it is not too 
widespread where I am in Georgia, but it sounds like your VA is 
pretty far ahead. And you are absolutely right. Veterans, there 
are just so many VA hospitals and they have tried to develop a 
lot more clinics; but again, there are wait times. There are 
access issues, just like there is everywhere else.
    I remember the VA was talking about this in the early 2000s 
and late 1990s. They were ahead of the game. I don't know that 
I have a magic pill for that, but it is a very good question. 
And they have been at the forefront, compared to other 
healthcare systems.
    Mrs. Kirkpatrick. Yes, they really have been working at it. 
There are still some software problems that I am hearing about, 
but they have really taken the lead in that.
    Any other comments from anyone else on the panel? I have 
about 30 seconds left. Okay, yes.
    Ms. Watahomigie-Corliss. Yes, I do have listed here 
available types of spectrum that maybe the VA would be--or 
consider either applying for a license or there are also 
unlicensed networks here. There is the Citizens' Broadband 
Radio Spectrum, which is called CBRS. That is a 3.5 gigahertz. 
It is lightly licensed and should be available late summer. 
There is the Educational Broadband Service Spectrum, but the 
FCC did just make their determination on that yesterday. There 
will be Tribal priority windows and then that will go up for 
auction. There is also unlicensed spectrum of 900 megahertz, 
2.4 gigahertz, and 5.8 gigahertz, and there is also what is 
called TV white space, and it is currently unlicensed but it 
has a wide enough range of frequencies to be available in most 
areas.
    Mrs. Kirkpatrick. I would love to work with the Tribe on 
expanding that in any way I can.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you very much, and now we will hear 
from the distinguished lady from Missouri, Mrs. Hartzler, for 5 
minutes.
    Mrs. Hartzler. Thank you, Mr. Chairman, and thank you each 
for being here. What an impressive panel. I just think your 
communities and your states are very blessed to have you in 
leadership.
    I want to start with Mr. Hurst. You have talked about, in 
your testimony, about the importance of broadband mapping to 
agriculture. Can you describe some of the problems that we are 
currently facing about--a little bit more about the legislation 
that you mentioned that would be helpful, but also about the 
FCC's National Broadband Map Initiative that is underway, and 
how you think that might be helpful?
    Mr. Hurst. The way it works now, as I understand it, if one 
person, one home in a Census block has access, then that means 
that that Census block is not eligible for any Federal 
programs. But it may be that it is just only one home, because 
in rural areas, because of the low population density, a Census 
block can be a lot of square miles. We need more granular data 
that gives us a better idea of how good that penetration is, 
how many people actually in the Census block are being served. 
That is why it is so very, very important that we work on these 
maps. It is one of our initiatives we are working on with our 
broadband group in Missouri. H.R. 3162 has that as its goal. 
There are also things written in the farm bill that would 
improve our mapping.
    In order to fix the problem, we have to be able to measure 
it, and so far, we can't.
    Mrs. Hartzler. Right, and I am glad that we are focused on 
that because I think that is just something that hasn't been 
focused on as much, but it is critical that we get the maps 
right so that we can get the funding where it is needed and 
make sure that people are helped. Thank you for that.
    Ms. Mollgaard, I really was inspired by hearing more about 
what is going in Red Wing, Minnesota, and your enthusiasm and 
just the great things there. But I want to get more specific, 
because I want to do this more in my district.
    You said that it is funded by the U.S. Economic Development 
Administration that provides technical assistance and support 
to rural communities. Is the support financially, or just 
technical assistance? What specific Federal programs--was it 
Reconnect funding? Was it the FCC's Connect America fund, or 
what did your community tap into, or is it just privately 
funded to help you expand and bring this broadband to your 
community?
    Ms. Mollgaard. In my written testimony, I list many of our 
partners----
    Mrs. Hartzler. Push your mic--there you go. Thanks.
    Ms. Mollgaard. In my written testimony, I list all of our 
wonderful partners and funders. It has been public-private 
partnership. Our City of Red Wing supports us. We have local 
foundations. We have had other grants, state and then with U.S. 
Ignite, that was funded by--they were initially funded by the 
White House, the National Science Foundation grant dollars. 
Currently as you were referring to with the EDA, we were 
selected by an organization called the Center on Rural 
Innovation to be part of their rural innovation initiative, and 
because we were one of nine communities in the nation, we were 
able to receive in-kind technical assistance to apply for the 
I-6 Challenge grant. We don't know the outcome of that. Now 
that I am here, maybe I need to go and see what the status of 
that grant application is.
    But it will be a wonderful network of communities, nine 
communities throughout the nation that will now work together 
to try to improve our innovation-based economies. It is the EDA 
I-6 Challenge grant is what I was referring to with the help 
from the Center for Rural Innovation.
    Mrs. Hartzler. We have come a long ways in providing some 
funding, but the problem, and you referenced it in your 
comments, was sustainability. There is money to help put the 
broadband there initially, but then you have to be able to 
sustain that model. And so, I was curious about that.
    But I wanted to talk about speeds just a little bit, and go 
back to Mr. Hurst.
    As you know, Missouri has set out a new broadband plan, but 
the plan's goal is to achieve universal access to high-speed 
Internet with speeds of at least 100 megabits per second 
download and 20 megabits upload for all Missouri citizens by 
2028, and I know there are similar goals elsewhere. Can you 
talk a little bit about how and why the states are adopting 
these broadband speeds that significantly outpace the Federal 
programs right now? And I was glad to offer the amendment in 
the farm bill that says now that USDA programs have to have at 
least 25 Mbps download and 3 Mbps upload speed, but that is 
still a far difference than Missouri's goals. Can you talk on 
that just a second?
    Mr. Hurst. Yes. We appreciate your help on the amendment, 
because before it was 10 Mbps to 1 Mbps, which is totally 
inadequate. Congresswoman Axne mentioned how much broadband it 
takes to watch Netflix, but the point is, in a rural home, you 
may have someone watching Netflix at the same time two or three 
children are trying to get on the Internet to do their 
homework, at the same time that perhaps we are uploading the 
data that we generated that day on our combines. We need the 
faster service because we are finding more and more ways to use 
broadband.
    I think Missouri's goal is ambitious, but it is necessary.
    Mrs. Hartzler. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, and now we will hear 
from the very distinguished gentlelady from Virginia, Ms. 
Spanberger.
    Ms. Spanberger. Thank you very much, Mr. Chairman, and 
thank you so much for being here today and for sharing your 
stories about how important broadband is to rural communities.
    Coming from a district like mine in central Virginia where 
many of my constituents don't have access to broadband, your 
stories of the challenges your communities have had to overcome 
to get broadband and how it often took longer than you would 
have liked really do resonate with me, and they reflect the 
stories I have heard from my constituents.
    One of my constituents, Roy, from Orange County, wrote to 
tell me that when he moved into his house 16 years ago, various 
Internet providers told him that he would have broadband very 
soon. You probably know where this story goes. It hasn't 
happened yet. He has a farm business, and the lack of high-
speed Internet significantly impacts his outreach and his 
sales. And he has also seen the effect of the lack of broadband 
has had on the local high school students as they try to do 
their homework.
    Another constituent, Crystal, from Henrico County in our 
district, works in healthcare, and many of her rural patients 
don't have easy access to the Internet, and she isn't able to 
give them the same follow up healthcare information online that 
she would like to and that she is able to with other patients.
    As communities in our districts are looking to expand our 
access to broadband, I appreciate the opportunity to learn from 
your experiences. And I was particularly struck by some of the 
comments that you made, Councilwoman Watahomigie-Corliss and 
Dr. Hess, related to the ability to use broadband Internet as 
it relates to telemedicine, and recognizing the challenges that 
you all have seen in your different communities, the challenge 
of having insignificant speed for applications such as 
telemedicine, and sir, you recounted the story of your Taco 
Bell experience when trying to deal directly to a patient.
    Knowing what you know now and what you have seen, I am 
wondering where you think other constituencies might be able to 
be a part of this conversation, be it medical professionals, be 
it veterans, as my colleague mentioned. Frequently, those of us 
who represent rural communities and those who live in rural 
communities are talking about this issue, but I also represent 
suburban communities where this issue isn't seen as prevalent. 
And so, I am wondering how, beyond this Committee room, we can 
continue to have this conversation so that people across the 
country understand the impact this has on our country.
    And I will start with you both if you have any comments.
    Ms. Watahomigie-Corliss. Hi there. In regards to 
telemedicine services, I think public outreach and partnership 
are important. I don't know how many times I have come to D.C. 
and nobody knows who the Havasupai even are. And in that 
regard, how are they supposed to know that I am from the most 
rural Native American Tribe in the lower 48 states?
    Now, the ruralness of my community, as I mentioned, will 
not create return of investment for people to build the 
infrastructure, and that is the way it has been all the way up 
until this point. We have been able to partner with a nonprofit 
organization, MuralNet, whose mission was to bring broadband 
speeds and connect the homework gap in Native America, and we 
just happened to be their first partnership, and we were able 
to get an approved STA license through the FCC, only one of six 
since 1995.
    Times have changed. The equipment, the cost of it is not as 
much as it used to be, and it costs us $35,000 in total for our 
first deployment.
    Ms. Spanberger. And when we are looking at how we can help 
communities like yours, like the ones that I serve, do you have 
any suggestions--to other witnesses as well--about how we can 
bring additional voices to this conversation so it is not just 
the people who are always impacted who are kind of ringing the 
bell of how important this is from a healthcare perspective, 
from an educational perspective, or from an economic 
perspective? How we can really get additional advocates to 
recognize the value of ensuring that all of our communities are 
connected, and so it is not wholly dependent on people like the 
Councilwoman or people like Ms. Mollgaard to bring it to their 
communities and to do that outreach?
    Ms. Watahomigie-Corliss. I do have a short statement that 
combining government initiatives to help bridge the rural 
digital divide, so that we can work together in partnership to 
help build those networks.
    Ms. Spanberger. Would anyone else--Dr. Hess?
    Dr. Hess. Yes, it is a very good question, and a very hard 
question. I am trying to think how to answer you.
    Charlottesville, where you are close to--I don't know if it 
is in that district--University of Virginia has a great 
telemedicine program, and we work with them. We work with them 
very, very closely.
    I will tell a story. We once had a hospital that was 
reluctant to start telestroke. Some of the physicians didn't 
believe in it, and so I went and gave a talk in a Methodist 
church one Sunday night, and they asked me--I was talking about 
stroke. And they said, ``Well, what about this drug TPA, Dr. 
Hess? If we go to the local hospital, can we get it?'' And I 
said no, and I told them how they could, and they literally 
marched on the hospital. You get hospitals, you get churches, 
you get communities to realize what they are missing.
    Now, the Internet connectivity is better to hospitals, but 
there is still--you have to get the public behind you.
    In Georgia, we worked out of churches which were a strong 
voice, and working with the university--that is the world I 
know. Working with the universities, we have a lot of support 
groups, that is how we kind of have done it, working with other 
community health centers, federally-qualified health centers. 
Of course, I am biased to the telehealth point. You bring all 
those constituencies together, and I think that helps.
    But it is a very good question, and I am not sure I 
answered it very well.
    Ms. Spanberger. No, I appreciate that. I have a list of 
constituencies you mentioned, so I appreciate that input and I 
believe I am out of time, so I will yield back. Thank you. 
Thank you.
    The Chairman. Thank you, and now we will hear from Mr. Van 
Drew, the gentleman from New Jersey.
    Mr. Van Drew. Thank you, Mr. Chairman. I want to thank you 
all for being here and sharing your experiences, your 
knowledge, and your insight for everyone that is here.
    The testimony we have heard today is important, and it is 
important, believe it or not, in New Jersey. And I know 
everybody thinks what is this guy doing on the Agriculture 
Committee? What is he doing involved with agricultural issues? 
He is from New Jersey, the most densely populated state in the 
United States of America. But actually, I have the most rural 
part of the state, and my district makes up, geographically, 40 
percent of the state, so I have almost \1/2\ of the state. And 
we have some of these same issues.
    I remember when I became, years ago, a new state senator, 
learning about those issues and being so surprised, surprised 
that people were really concerned and worried that the 
emergency services that they wanted to get or needed were not 
foolproof by any means, and sometimes it didn't work. Concerned 
that their kids were really having a difficult time doing their 
homework. Concerned that their businesses weren't doing as well 
as they nearly could, especially in the way business works 
today, because they weren't able to access the Internet 
properly. Concerned for their safety. Concerned for their 
economic security. Concerned for their farming, because again, 
farming has, as you all elaborated so well, farming has changed 
so much over the years and is going to change a lot more. And 
our world is going to change more. We are going to be short of 
doctors in the areas that you are speaking about, but we are 
going to be short of physicians almost everywhere. Maybe not in 
midtown Manhattan, but let me tell you, in major swaths of the 
country, we are going to have a physician shortage and a 
healthcare shortage that is very serious. Imagine how it is 
going to be in areas like this. I am from south Jersey, and my 
area of south Jersey, people who need care, even for 
developmentally disabled kids or need a host of other things 
aren't able to access them. It isn't only in the Midwest or in 
certain areas. It can be anywhere.
    We have the lowest per capita income, the highest rate of 
obesity, the highest rate of teenage pregnancy. I can go 
through the list. And yet, just a few miles away will be some 
of the most beautiful homes on the shores and the beaches. It 
is a real dichotomy.
    The work that you are doing is important, because you can't 
give people success--you can't--but you can give them 
opportunity to achieve success, and that is what you are all 
about, and that is what this is about. You can't expect people 
to do as well as they should when we have this kind of digital 
divide. And we still have it, even in places like south Jersey, 
as unbelievable as that is.
    Along those lines of success, I just thought--anybody can 
answer it. Broadband obviously makes the economy better. Any 
particular ways that you believe it levels the playing field? 
And I think you know the answer between urban and rural and the 
job market.
    Mr. Hengel. Absolutely. Thank you, Congressman, for the 
comment.
    Being in economic development for 30 years, I have seen 
great changes, and certainly, broadband has been the central 
focus of why those changes have occurred over the last 5 years. 
The increasingly economic development is about a race for 
talent, and I can't stress enough the importance of being able 
to provide a community that people want to live, and to want to 
be a part of. And that is--certainly broadband is a central 
part of that. That is simply going to be a must-have. People 
are not going to live, particularly young people, in 
communities where they cannot stay connected. And so, that is 
so important.
    Also, I would add is there simply aren't any low-tech jobs 
anymore. There just aren't. There are no low-tech industries. 
In my neighborhood or my area of the state, logging, wood 
products manufacturing, sawmilling, all those are significant 
data users. I think it is critical that without the broadband, 
you simply are not going to be able to keep up with the global 
economy.
    Mr. Van Drew. And I think you are right, and the world has 
changed. Whether we like it, whether we don't like it, it is 
the reality, and those of us in government have a 
responsibility to make sure that everybody does have that 
opportunity.
    And just alluding to what the Congresswoman was saying 
before, a lot of people don't know that. It is amazing. Even in 
my district, from the western part of the district, which is 
generally less affluent and doesn't have some of the access to 
the eastern part of my district where people do and are quite 
wealthy, they have no idea. If I was to tell them that, they 
would say, ``No, not in New Jersey. That can't be.'' I think we 
have our work cut out for us, and it really is an important 
subject for the entire nation.
    Thank you.
    The Chairman. Well thank you, Mr. Van Drew, for your 
excellent remarks. I agree with you wholeheartedly.
    Before we end, I would like to recognize our Ranking Member 
for any additional comments, closing, or questions you may 
have.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman.
    I want to comment on Mr. Hurst's answer to Mrs. Hartzler's 
question. The industry has the ability to provide shape file 
mapping today to the FCC, and if the FCC would begin to use 
that and they could use it virtually immediately. It would not 
take long at all to implement that. Then we would have those 
more accurate maps that you and Mrs. Hartzler were discussing.
    Ma'am, I appreciate your testimony about the different 
capabilities and technologies that are out there. As someone 
who lives 15 miles north of--I would call it a city. Most 
people would call it a town. I recognize the technology that is 
going to work at my house might not be the same technology that 
is deployed in the city. I don't care what technology it is, as 
long as it works, and it seems that that is your approach, and 
I appreciate that very much. If there is anything that this 
Committee can do to help you with any licensure that you may 
need help with, I think that the Committee would be more than 
willing to help provide that support to the people that you 
represent in your Tribe.
    Doctor, I appreciate you being here, and appreciate the 
others who testified as well. It seems to me that what we have, 
maybe it is the old question of the chicken and the egg. Do we 
build the biggest, fastest interstate we can, how do we get it 
there, I guess is my question, Mr. Chairman, and I am--I don't 
care what the technology is. I am not biased to any of them, 
but I do know this. We can do a better job, and we have to do a 
better job, because we are losing our population in rural 
America.
    I represent 24 counties right now. I expect after the next 
Census, I will probably represent 26 or 27, and Congressman 
Bishop, just to my west, currently represents 28, and he will 
probably represent 31 or 32. And you guys in the Metro area are 
picking them up.
    The Chairman. I represent seven right now, I used to 
represent 13.
    Mr. Austin Scott of Georgia. Yes, but there has been a huge 
population shift from the urban areas, the metropolitan areas, 
and this is one of--it is education, it is healthcare. But in 
the end, a lot of it revolves around technology and access to 
that, and we can play a big part in fixing that.
    Thank you so much for the hearing. To those who were here 
to testify, thank you for your testimony. It was extremely 
important, and this is something that we can and will be 
working together to help resolve.
    The Chairman. Thank you so much, Ranking Member. You 
touched on a number of very important parts. And to answer part 
of your question, going forward, we need to understand that the 
bottom line right now about this, it takes money. It takes 
money. It takes priority of funding. And so, with that in mind, 
I would like to make a suggestion. I would start with you, Mr. 
Hurst, with the American Farm Bureau. You all are well-placed. 
No national organization is more well-placed to get into this 
bargaining situation with rebuilding our infrastructure. Right 
now, we need our rural communities to have a seat at the table 
as we look at the budget, as we look at where this money needs 
to go.
    I would like for you to give Zippy, my good friend Zippy 
Duvall--we worked together on many things--and of course, he 
comes right out of Georgia, so go back to my days in the 
Georgia State Senate. But here is what I am suggesting. There 
is some definitive, well-respected source that needs to submit 
to this Congress the kind of funding that our rural communities 
that we need to devote to accomplish everything that we have 
said here. And I hope that you all know that from the passion 
you heard from our Committee Members, that we in this 
Subcommittee on Commodity Exchanges, Energy, and Credit, we are 
this financial arm of the agriculture industry, and our whole 
approach--there is nobody better to be the champions for 
getting proper broadband and Internet access to our rural 
communities. But you and your organization is probably the 
premier organization that is well-placed to say to us, ``This 
is how much money it is going to take for us to be a part.''
    Right now, the figure that keeps bouncing around--sometimes 
it is hard to get this one in the room, that one in the room at 
the same time. But we are going to get there. We have no choice 
but to move ahead. Our infrastructure is crumbling, we have to 
send this clarion callout that crumbling is not just taking 
place with bricks, with mortar, with just roads, highways, 
trains, all of that. This crumbling has been taking place in 
our rural communities, and we have to lift up our rural 
communities and give them a premier prime seat at the table as 
we divide and determine the amount of money that we need.
    And as I said right now, it is fluctuating between $2 and 
$2\1/2\ trillion. My estimate is when you look at what needs to 
be done in the rural communities for broadband, it is life-
saving. I mean, it is more than just crumbling roads. 
Infrastructure is human beings. They are us. They are people. 
Not just roads, not just airports. We got to get that through. 
It is education. It is job training. It is healthcare. It is 
lifting up and making people not just want to live in rural 
areas, but will desire to live there. And we have to give that 
attention to it.
    I would like for you to understand that that is why we had 
this. Austin Scott and I met early last year when we knew at 
the beginning of the year that we would be in charge of this. 
This is a strong, bipartisan, Democratic and Republican 
Committee. That is what it takes to get the job done. We are 
uniquely placed to do it, but we need you all to tell us as 
soon as possible how much money it is going to take. How it 
should be applied to make sure that our rural communities are 
the sparkling oases of life, of excitement, of productivity 
that they have been as the source of the foundation of our 
country. Our country wasn't founded on big cities. They were 
founded with people in small towns, and towns that grew into 
cities. But it is the rural communities that need to have our 
energy and our direction. And so, I want to make sure that you 
all take down this assignment, our Subcommittee here, and 
Ranking Member Scott and myself and our Members will be your 
champions to get this done. But the next step is we have to get 
the money appropriated to do it, and we need you all to let us 
know how much it is going to take so we can start selling it up 
here. All right?
    Again, thank you all, and there is some homework I need to 
read here. Let me put my glasses on. Under the Rules of the 
Committee, the record of today's hearing will remain open for 
10 calendar days to receive additional material and 
supplementary written responses from the witnesses to any 
questions posed by a Member.
    This hearing of the Subcommittee on Commodity Exchanges, 
Energy, and Credit is adjourned.
    [Whereupon, at 11:56 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Letter Submitted by Hon. Ann Kirkpatrick, a Representative in Congress 
   from Arizona; on Behalf of James D. Ogsbury, Executive Director, 
                     Western Governors' Association
July 9, 2019

 
 
 
Hon. David Scott,                    Hon. Austin Scott,
Chairman,                            Ranking Minority Member,
Subcommittee on Commodity            Subcommittee on Commodity
 Exchanges, Energy, and Credit,       Exchanges, Energy, and Credit,
Committee on Agriculture,            Committee on Agriculture,
U.S. House of Representatives,       U.S. House of Representatives,
Washington, D.C.;                    Washington, D.C.
 

    Dear Chairman David Scott and Ranking Member Austin Scott:

    In advance of the Subcommittee's July 11 hearing on ``Building 
Opportunity in Rural America through Affordable, Reliable and High-
Speed Broadband,'' attached please find three Western Governors' 
Association (WGA) policy resolutions addressing broadband deployment:

  <bullet> WGA Policy Resolution 2019-04 (http://www.westgov.org/
        images/editor/WGA_PR_2019-
        04_Health_Care_in_Western_States.pdf), Health Care in Western 
        States;

  <bullet> WGA Policy Resolution 2018-13 (http://westgov.org/images/
        editor/WGA_PR_2018-13_Workforce_Development.pdf), Workforce 
        Development in the Western United States; and

  <bullet> WGA Policy Resolution 2017-09 (https://westgov.org/images/
        editor/2017-09_Western_Agriculture.pdf), Western Agriculture.

    I request that these documents be included in the permanent record 
of the hearing, as they articulate Western Governors' policy positions 
on this important issue.
    Please contact me if you have any questions or require further 
information. In the meantime, with warm regards and best wishes, I am
            Respectfully,
            [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
            
James D. Ogsbury,
Executive Director.
                              attachment 1
Policy Resolution 2019-04
Health Care in Western States
A. Background
  1.  Ensuring access to high-quality, affordable health care services 
            is an important element of maintaining and enhancing the 
            quality of life in western states for our growing 
            populations. It is the basis for healthy communities and 
            healthy economies.

  2.  Western states face unique challenges in health care, including 
            growing rates of substance use disorder, provider shortages 
            in underserved and rural areas, and limited access to 
            broadband. Low population densities and the vast distances 
            between population centers also make it difficult for 
            providers to establish economically-sustainable health care 
            systems in rural areas.

  3.  Distance and density also inhibit construction of the technology 
            infrastructure that would provide or improve broadband 
            connectivity in underserved and rural areas. Expanding 
            broadband access provides numerous quality-of-life benefits 
            for rural Americans, including economic development, social 
            connectivity, education, public safety, and access to 
            telehealth and telemedicine.

  4.  The health care sector faces severe personnel shortages in 
            western states, despite efforts of Western Governors, such 
            as the foundation of Western Governors University and other 
            medical training programs in western states, to ensure 
            adequate numbers of qualified medical personnel. This 
            challenge is particularly acute in the West's underserved 
            and rural areas. Ensuring access to health care services 
            requires an adequate number and distribution of physicians, 
            nurses and other trained health care professionals. 
            Population growth, aging residents, and challenges 
            involving Tribal health care and services for veterans 
            require a renewed focus on developing our nation's health 
            care workforce.

  5.  Western states struggle with access to behavioral health services 
            and higher-than average suicide rates. The ten states with 
            the highest suicide rates in the nation are all located in 
            the West.

  6.  Substance use disorder (SUD), including alcohol and drug misuse, 
            is a major public health and safety crisis affecting nearly 
            21 million Americans. It is particularly prevalent in 
            western states where individuals are more likely to have 
            SUD during their lifetime. SUD crosses all social and 
            economic lines and tragically takes the lives of tens of 
            thousands of Americans every year. While state and Federal 
            progress has been made to fight this epidemic, additional 
            efforts are necessary to help bridge prevention and 
            treatment gaps in western states.

  7.  In many cases, health disparities and barriers to accessing 
            health care are particularly acute for certain populations 
            in the West. A better understanding of the role that social 
            determinants play in health outcomes can inform the 
            development of effective health policy to increase access 
            for these populations.

  8.  Western states have a unique body of experience, knowledge and 
            perspective with respect to health care. The Western 
            Governors' Association (WGA) is ideally situated to collect 
            and disseminate information, including best practices, case 
            studies and policy options, that states can use to improve 
            the foundation for health care services and advocate for 
            shared policy priorities on behalf of their citizens.
B. Governors' Policy Statement
  1.  Federal efforts to address health care workforce and access needs 
            should reflect early, meaningful and substantive input from 
            Governors, who are best positioned to assess the needs of 
            their states and help develop solutions to meet these 
            needs. State-Federal collaboration and coordination are 
            integral to addressing these health care challenges. 
            Wherever possible, and where appropriate, the Federal 
            Government should respect state authority and maximize 
            flexibility granted to states and Governors.

  2.  The Federal Government should work with states to facilitate the 
            deployment of broadband to underserved and rural areas, 
            recognizing that adequate broadband access has a direct 
            correlation on rural populations' ability to access 
            telehealth and telemedicine.

  3.  Despite efforts by Western Governors to address the shortage of 
            qualified health care workers, significant challenges 
            remain. Governors urge the Federal Government to examine 
            and implement programs to ensure states have an adequate 
            health care workforce--including in primary care and other 
            in-demand specialties--that is prepared to serve diverse 
            populations in urban, suburban, and rural communities. 
            Governors also support efforts to increase the diversity of 
            the health care workforce to improve health outcomes for 
            all.

  4.  Western Governors support efforts to improve the quality and 
            quantity of behavioral health services available to our 
            residents, as these services are essential to reducing 
            suicide rates and treating a range of behavioral health 
            conditions, including substance use disorder.

  5.  The Federal Government should work toward treating addiction as a 
            chronic illness and work with Western Governors to develop 
            strategies for addressing substance use disorder that work 
            in concert with state efforts and recognize regional 
            variations in substance use disorder patterns.
C. Governors' Management Directive
  1.  The Governors direct WGA staff to work with Congressional 
            committees of jurisdiction, the Executive Branch, and other 
            entities, where appropriate, to achieve the objectives of 
            this resolution.

  2.  Furthermore, the Governors direct WGA staff to consult with the 
            Staff Advisory Council regarding its efforts to realize the 
            objectives of this resolution and to keep the Governors 
            apprised of its progress in this regard.

          Western Governors enact new policy resolutions and amend 
        existing resolutions on a bi-annual basis. Please consult 
        westgov.org/resolutions for the most current copy of a 
        resolution and a list of all current WGA policy resolutions.
                              attachment 2
Policy Resolution 2018-13
Workforce Development in the Western United States
A. Background
  1.  Workforce development efforts contribute to the economic well-
            being of western states by enabling people to find 
            fulfilling, well-paying jobs, fostering economic mobility, 
            and ensuring that businesses have access to the skilled 
            employees they need to thrive.

  2.  Western states had an average unemployment rate of just under 4.0 
            percent in March 2018.\1\ Many businesses report that they 
            cannot find qualified candidates for open positions. At the 
            same time, many jobseekers are unable to find good jobs for 
            which they are qualified.
---------------------------------------------------------------------------
    \1\ Bureau of Labor Statistics, Local Area Unemployment Statistics, 
May 18, 2018.

  3.  Workforce development challenges are particularly acute in rural 
            communities, which are commonly characterized by higher 
            rates of unemployment, a lack of economic diversity, 
            geographic isolation, and limited infrastructure, including 
---------------------------------------------------------------------------
            access to broadband.

  4.  Economic equity continues to be a problem across states, with 
            people of color and people with disabilities, regardless of 
            career preparation and credential levels, seeing poorer 
            rates of employment and earnings than majority populations.

  5.  There are 6.6 million unfilled jobs in the United States due in 
            part to a shortage of workers with the skills and 
            qualifications to fill those positions.\2\ The largest gap 
            is in middle skills jobs, which require more than a high 
            school diploma but less than a 4 year degree.
---------------------------------------------------------------------------
    \2\ Bureau of Labor Statistics, Job Openings and Labor Turnover 
Summary, May 8, 2018.

  6.  Postsecondary education and training is critical in today's 
            economy. Almost 80 percent of jobs in the United States 
            require a postsecondary credential, including certificates, 
            associate degrees, 4 year degrees, and licenses.\3\
---------------------------------------------------------------------------
    \3\ National Skills Coalition, United States Middle-Skill Fact 
Sheet (https://www.nationalskillscoalition.org/state-policy/fact-
sheets), February 2017

  7.  On average, those holding a bachelor's degree earn more than 
            those who have not attained that degree, but those who do 
            not reach that level of education can still find good 
            employment. There are 30 million jobs that don't require a 
            4 year degree and pay at least $35,000 per year with a 
            median salary of $55,000.\4\
---------------------------------------------------------------------------
    \4\ Carnevale, A.P., Strohl, J., and Ridley, N., Good Jobs that Pay 
Without a BA: A State-by-State Analysis (https://goodjobsdata.org/wp-
content/uploads/Good-Jobs-States.pdf). Georgetown University Center of 
Education and the Workforce, 2017.

  8.  Education systems have not kept pace with economic realities. 
            Student success is traditionally perceived, and measured, 
            as moving directly from high school to a 4 year degree 
            program. Today, only 20 percent of students successfully 
            complete that traditional pathway to their career.\5\ The 
            rest are finding their own pathways to success, which may 
            include entering the world of work or pursuing other types 
            of credentials. Many, however, encounter obstacles.
---------------------------------------------------------------------------
    \5\ U.S. Department of Education, National Center for Education 
Statistics, The Condition of Education 2017 (https://nces.ed.gov/
programs/coe/indicator_ctr.asp), May 2018.

  9.  On average, only about \1/3\ of high schoolers are engaged in 
            school, meaning that \2/3\ are not actively involved in or 
            enthusiastic about school.\6\ Three million young adults 
            ages 16-24 are not participating in either work or 
            education.\7\
---------------------------------------------------------------------------
    \6\ 2016 Gallup Student Poll Snapshot Report (https://
news.gallup.com/reports/210995/6.aspx).
    \7\ Brookings, Employment and disconnection among teens and young 
adults: The role of place, race, and education (https://
www.brookings.edu/research/employment-and-disconnection-among-teens-
and-young-adults-the-role-of-place-race-and-education/), May 2016.

  10.  Additionally, many Americans start a college degree but do not 
            complete it, leaving them with the burdensome costs of 
            higher education but no wage benefit--35 million people 
            over 25 have some college credits but no degree.\8\
---------------------------------------------------------------------------
    \8\ U.S. Census Bureau, Educational Attainment in the United 
States: 2017, December 14, 2017.

  11.  As students increasingly pursue indirect routes to higher 
            education, over 70 percent of students enrolled in 
            postsecondary education are now ``nontraditional students'' 
            who may be older, working full or part time, or caring for 
---------------------------------------------------------------------------
            children.

  12.  Technology will continue to be a disruptive force in the labor 
            market, driving potentially drastic changes in the labor 
            demands of certain industries. It is expected that many 
            jobs that will be in demand in 2030 do not yet exist. 
            Workers will need to be able to acquire new skills over 
            their careers to adapt to change. Up to \1/3\ of U.S. 
            workers in 2030 may need to learn new skills or move into a 
            new occupation due to the impacts of automation.\9\
---------------------------------------------------------------------------
    \9\ McKinsey Global Institute, Jobs Lost, Jobs Gained: Workforce 
Transitions in a Time of Automation (https://www.mckinsey.com//media/
McKinsey/Global%20Themes/Future%20of%20
Organizations/
What%20the%20future%20of%20work%20will%20mean%20for%20jobs%20
skills%20and%20wages/MGI-Jobs-Lost-Jobs-Gained-Report-December-6-
2017.ashx), December 2017.

  13.  To address these issues, Western Governors have prioritized a 
            variety of workforce development efforts, from better 
            aligning education with labor market demands to expanding 
            workforce services and training opportunities for the 
            unemployed and underemployed to attracting more skilled 
---------------------------------------------------------------------------
            workers.

  14.  Western states are also leading the way on expanding work-based 
            learning opportunities for both students and adults. Work-
            based learning programs, including registered 
            apprenticeships, allow people to acquire in-demand skills 
            while earning a salary.

  15.  Employer leadership is critical to ensure that workforce 
            development efforts are satisfying the needs of an ever-
            changing economy. Businesses in the West have taken an 
            active role in working with educational institutions and 
            workforce agencies but increasing industry participation 
            will remain critical.
B. Governors' Policy Statement
  1.  Western Governors recognize that there are many pathways students 
            can take to a successful career, including short-term 
            education and skills training or work-based learning 
            programs such as registered apprenticeships. Students and 
            jobseekers should have access to understand their options 
            and the potential outcomes of these programs.

  2.  Facilitating lifelong learning is essential to prepare for the 
            impacts of technology on the labor market. Western 
            Governors encourage Congress to increase student access to 
            short-term education and skills training programs in 
            reauthorization of the Higher Education Act, including 
            through expanding the Pell Grant program to include high-
            quality short-term training programs leading to industry-
            recognized credentials. These flexible work-force oriented 
            funds should be coupled with plans to adopt and report 
            outcomes metrics tied to employment and earnings to 
            maximize the success of this policy in equipping workers 
            for high-opportunity jobs and careers.

  3.  Western Governors also support the expansion of work-based 
            learning programs, including registered apprenticeships. 
            Western Governors encourage Congress and Federal agencies 
            to support and incentivize state-, local-, and industry-led 
            partnerships to create and scale work-based learning and 
            apprenticeship programs. New Federal investments in 
            apprenticeships should align with existing efforts to 
            foster a coherent system with minimal duplication at the 
            Federal, state, and local level.

  4.  Career and technical education (CTE) helps expose students to 
            their career options and develop skills they will need in 
            the workforce. Western Governors call on Congress to 
            reauthorize and fully fund the Carl D. Perkins Career and 
            Technical Education Act. Reauthorization of the act should 
            take into consideration the following principles:

      <bullet> Governors and states are in the best position to 
            determine how to use Fed-
              eral CTE funding to meet the unique needs of their 
            economies.

      <bullet> High-quality CTE programs should lead to in-demand, high 
            wage careers; 
              include career and academic advising; include pathways to 
            4 year degrees, 
              for example through articulation agreements or stackable 
            credentials; and 
              develop employability skills through integrated education 
            and training, 
              work-based learning or leadership opportunities.

  5.  Western Governors note that Federal funding for workforce 
            development through the Workforce Innovation and 
            Opportunity Act supports economic growth and job creation 
            in the states. Western Governors request that the 15 
            percent reserve for statewide activities be maintained. 
            This funding allows Governors to be flexible in addressing 
            state needs and supports innovation.

  6.  Western Governors encourage the Federal agencies, including the 
            U.S. Department of Labor and U.S. Department of Education, 
            to coordinate their efforts to better align Federal 
            workforce development, career and technical education, and 
            higher education programs.

  7.  Western Governors recognize the benefits of measuring and 
            reporting outcomes by institution and program. Reporting 
            completion rates, employment and earnings will provide 
            useful information for students and their families and help 
            promote the success of these programs to prepare students 
            for in-demand jobs and careers in their regions. Western 
            Governors encourage Congress to include the College 
            Transparency Act in reauthorization of the Higher Education 
            Act, to adopt and report on earnings, employment, and 
            credential attainment metrics by education provider and 
            individual program in a manner that protects student 
            privacy and ensures data security.

  8.  Employers play an important role in state workforce development 
            efforts. Western Governors support efforts to incentivize 
            employers to play a more active role in talent development, 
            through partnership with state workforce development 
            agencies and educational institutions or investments in the 
            skills and training of their employees.

  9.  Rural communities are at risk of falling further behind in skills 
            necessary for the economy of the future due to a lack of 
            broadband access. Western Governors encourage Federal 
            agencies and Congress to continue to deploy resources to 
            solve this urgent need.

  10.  Professional licensing requirements vary by state and can create 
            a barrier to mobility for professionals in western states. 
            Where possible, Western Governors should work together to 
            minimize this barrier.
C. Governors' Management Directive
  1.  The Governors direct WGA staff to work with Congressional 
            committees of jurisdiction, the Executive Branch, and other 
            entities, where appropriate, to achieve the objectives of 
            this resolution.

  2.  Furthermore, the Governors direct WGA staff to consult with the 
            Staff Advisory Council regarding its efforts to realize the 
            objectives of this resolution and to keep the Governors 
            apprised of its progress in this regard.

          Western Governors enact new policy resolutions and amend 
        existing resolutions on a bi-annual basis. Please consult 
        www.westgov.org/resolutions for the most current copy of a 
        resolution and a list of all current WGA policy resolutions.
                              attachment 3
Policy Resolution 2017-09
Western Agriculture
A. Background
  1.  Agriculture and forestry in the western states and territories 
            are significantly different than in other regions of the 
            country. We have greater variations in soil, climate, 
            terrain, commodities and production practices, and water 
            availability.

  2.  Farms, forests, and rangelands are important contributors to the 
            economies and quality of life of western states. Among 
            other important values, western agricultural and forest 
            lands are primary sources of open space, wildlife habitat, 
            water supplies, and diverse rural economic opportunities in 
            the recreation, food, fiber, energy and biobased product 
            industries.

  3.  Trade promotion plays an important role in ensuring that western 
            agricultural products and food have an opportunity to 
            compete with products produced and subsidized 
            internationally.

  4.  Western states have seen some of the most significant increases 
            in per-capita veteran populations since 2000, including 
            surges in returning veterans under the age of 25. It is 
            estimated that nearly 25 percent of all veterans live in 
            rural areas. These veterans have slightly lower rates of 
            employment compared to veterans living in urban areas and 
            to their non-veteran rural colleagues.

  5.  Responsible management of Federal lands is a significant concern 
            for Western Governors. Western states include more than 75 
            percent of our National Forest and rangeland ecosystems. 
            These public lands serve as critical economic drivers, and 
            they provide numerous conservation benefits, water supply, 
            and recreational opportunities for Western communities and 
            the nation.

  6.  The West's network of land-grant universities and colleges, 
            including Cooperative Extension Service programs, continue 
            to provide national leadership in research to develop more 
            resilient seeds and crops, manage soil health, advance 
            technology deployment in the biobased economy and conduct 
            on-farm research experiments that help farmers and ranchers 
            be more effective and efficient.

  7.  Western Governors recognize that nutrition assistance programs 
            can meet the needs of children and the most vulnerable, 
            while creating economic opportunity across the agriculture 
            supply-chain from the store where food is purchased, all 
            the way back to the farm. Western Governors acknowledge 
            recent efforts to reduce rates of nutrition program fraud 
            and abuse, deliver programs under budget, and improve 
            program effectiveness.

  8.  Many agricultural producers in the West rely on irrigation water 
            delivery systems that are shared among multiple producers 
            and operated by an irrigation district, canal company, or 
            mutual ditch company.
B. Governors' Policy Statement
  1.  Western Governors support funding for the U.S. Department of 
            Agriculture (USDA) Market Access and Foreign Market 
            Development Programs to promote opportunities for western 
            producers to increase export revenues and encourage trade 
            agreements that maximize benefits for the West's farmers, 
            ranchers and forest landowners.

  2.  Western Governors support adequate funding for the USDA Specialty 
            Crop Block Grant Program (SCBGP) that provides critical 
            research, education, and promotion tools to the fruit and 
            vegetable producers.

  3.  Western States have experienced sharp declines in farm income and 
            farm prices since 2013. Western Governors support a farm 
            safety net that recognizes past deficit reduction 
            contributions of the agricultural sector and maintains 
            funding for other key commodity, conservation, crop 
            insurance, research, energy, and export promotion programs. 
            In particular, Western Governors note that the conservation 
            title of the 2014 Farm Bill contributed to deficit 
            reduction, saving taxpayers $6 billion by consolidating 23 
            programs into 13, streamlining and targeting delivery to 
            farmers, ranchers, and foresters. Western Governors support 
            farm bill funding levels based on need rather than baseline 
            budget targets.

  4.  Western Governors encourage the expansion of programs that can 
            meet the unique educational, training, technical and 
            financial needs of new, beginning and veteran farmers and 
            ranchers and other USDA programming that can help returning 
            veterans develop and expand business opportunities in rural 
            communities.

  5.  Western Governors continue to support collaborative, targeted and 
            voluntary conservation to address locally identified 
            natural resource issues for farm, range, and forest 
            resource concerns on private and public lands, such as soil 
            health, air and water quality, drought and wildfire 
            resilience, wildlife habitat conservation and invasive 
            species. Western Governors support the role of conservation 
            title programs in providing voluntary solutions to 
            threatened and endangered species, water quality 
            impairments, groundwater recharge, and other regulatory 
            concerns potentially facing producers.

  6.  Western Governors support an increase in the role that state and 
            local governments have in managing public lands for 
            multiple uses, including agriculture.

  7.  Western Governors continue to urge Congress to provide a 
            comprehensive solution for the current approach to 
            budgeting for wildland fire for the Departments of [the] 
            Interior and Agriculture. Any fire budget solution must 
            address the chronic problem of the rising costs of wildfire 
            and the complicating problem of mid-season budget transfers 
            when appropriated funding becomes insufficient. A 
            comprehensive fix is needed to address capacity constraints 
            and allow for a predictable program of work for agencies to 
            fulfill their management responsibilities.

  8.  Western Governors acknowledge significant progress toward 
            achieving forest restoration goals by using authorities 
            granted in the 2014 Farm Bill. Western Governors support 
            permanent authorization of the Insect and Disease 
            designation provisions of section 602 of the 2014 Farm Bill 
            and the elimination of project constraints from section 603 
            for condition class or fire regimes outside of the Wildland 
            Urban Interface (WUI). Western Governors also support 
            creating additional flexibility to Good Neighbor Authority 
            to address conflicting language on road construction and 
            reconstruction and the uses of program income. The lack of 
            flexibility restricts opportunities for states to partner 
            in shared stewardship work across boundaries.

  9.  Within the context of comprehensive wildland fire budget reform, 
            existing law and forest plans, Western Governors support 
            the use of new tools to streamline environmental analysis 
            to increase the pace and scale of restoration activities. 
            Specifically, Western Governors support creation of a new 
            pilot program to prioritize landscape-scale environmental 
            analysis for restoration projects envisioned over 
            geographies greater than 100,000 acres. This pilot program 
            should allow for predictable project-scale implementation 
            and adaptive management. Western Governors believe Federal 
            agencies should develop guidance to build consistency in 
            environmental analysis and bring agency practice in 
            conducting environmental assessments (EAs) more in line 
            with the administrative policy intent of streamlined, 
            summary documents. Western Governors affirm that Congress 
            should resolve outstanding issues with potential 
            requirements to reinitiate endangered species consultations 
            following the adoption, amendment or revision of an 
            appropriate management plan.

  10.  Western Governors support Congress establishing a restoration 
            categorical exclusion (CE) based on a record of analysis 
            from the past 5 years of projects where agency analysis and 
            a decision recognized a finding of no significant 
            environmental impact. Western Governors support allowing 
            Federal agencies to analyze only the action and no-action 
            alternatives when a project is collaboratively developed, 
            unless a third alternative is proposed during scoping and 
            meets the purpose and need of the project. Western 
            Governors also support rewarding successful implementation 
            of collaborative projects through funding, retained-receipt 
            authority, or other capacity to pursue subsequent projects.

  11.  Western Governors support efforts to expand research funding to 
            address drought, a changing climate and extreme weather 
            risks facing western producers.

  12.  Western Governors encourage the effective use of extension and 
            other partnerships to deliver practical tools, technologies 
            and information to farmers, ranchers and forest landowners.

  13.  Nutrition assistance programs should continue to allow 
            flexibility for states to respond to unique economic 
            conditions, serve all eligible participants without 
            drastically reducing benefits, and encourage continued 
            pursuit of transparency and accountability in program 
            administration.

  14.  Western Governors support changes to conservation title programs 
            that remove existing contracting barriers for western 
            producers, and make the farm bill's conservation title 
            programs more accessible and relevant to western producers 
            and their associations.

  15.  Western Governors support coordinated state and Federal action 
            to expand markets for wood products that can achieve forest 
            and rangeland restoration objectives and foster rural 
            employment and income opportunities. Western Governors 
            support coordinated financing and grant support from USDA 
            Rural Development programs and the USDA Forest Service to 
            advance wood product business development, infrastructure, 
            and demonstration products in the areas of mass timber 
            construction and biomass energy.

  16.  Western Governors support the USDA, Animal and Plant Health 
            Inspection Service (APHIS) and Agricultur[al] Research 
            Service (ARS). APHIS works in partnership with state 
            departments of agriculture to monitor, prevent and control 
            infestations of invasive pests and diseases and curtail or 
            minimize wildlife conflicts, which can cause widespread 
            environmental and economic damage and safety hazards. APHIS 
            works in cooperation with other Federal agencies, states, 
            territories, counties and private entities to implement 
            management programs. ARS conducts research to develop and 
            transfer solutions to agricultural problems of high 
            national priority, and shares information to ensure high 
            quality, safe food and other agricultural products. ARS 
            research helps sustain a competitive economy; enhance the 
            natural resource base and the environment; provide economic 
            opportunities for rural communities and society as a whole, 
            and; provide the necessary infrastructure to create and 
            maintain a diverse workplace.

  17.  Western Governors support the continued efforts of the Rural 
            Utilities Service to provide financial assistance for 
            drinking water, wastewater facilities and broadband 
            connectivity in rural and remote areas, particularly in 
            communities that have minimal or no such infrastructure. 
            Expanding broadband access to rural America will allow 
            citizens to compete in a global market and have access to 
            IT health care, education and public safety resources.

  18.  Western Governors support the recommendations identified over 
            the course of the WGA National Forest and Rangeland 
            Management Initiative, and incorporate those 
            recommendations related to the reauthorization of the 
            Agricultural Act into this resolution by reference.
C. Governors' Management Directive
  1.  The Governors direct WGA staff to work with Congressional 
            committees of jurisdiction, the Executive Branch, and other 
            entities, where appropriate, to achieve the objectives of 
            this resolution.

  2.  Furthermore, the Governors direct WGA staff to consult with the 
            Staff Advisory Council regarding its efforts to realize the 
            objectives of this resolution and to keep the Governors 
            apprised of its progress in this regard.

          Western Governors enact new policy resolutions and amend 
        existing resolutions on a bi-annual basis. Please consult 
        www.westgov.org/resolutions for the most current copy of a 
        resolution and a list of all current WGA policy resolutions.
                                 ______
                                 
                          Submitted Questions
Questions Submitted by Hon. Stacey E. Plaskett, a Delegate in Congress 
        from Virgin Islands
Response from Neela Mollgaard, Executive Director, Red Wing Ignite
    Question. Ensuring reliable broadband access is clearly a crucial 
component of encouraging economic growth. Broadband is a critical 
component of our economic development and I see that you have built 
partnerships and initiatives with schools, government, businesses and 
nonprofits.
    How can we build public-private partnerships to support broadband 
infrastructure in the Virgin Islands?
    Answer. Public-private partnerships were essential to the creation 
of Red Wing Ignite. Since its inception, Red Wing Ignite forged 
partnerships with government, academia, corporate partners, and 
individuals to grow our innovative ecosystem to advance entrepreneurs, 
businesses and students.
    The launch of Red Wing Ignite was a collaboration between the City 
of Red Wing, the Red Wing Port Authority, U.S. Ignite, Hiawatha 
Broadband Communications, community leaders and funders. It took 
perseverance from local champions to make the idea a reality. Broadband 
infrastructure is essential, but so is an organization like Ignite--
bringing opportunity, access and exposure to the skills required in the 
21st Century economy.
    In 2012, Red Wing was one of 25 cities to join U.S. Ignite's their 
national network. U.S. Ignite was initially funded by the White House 
Office of Science and Technology Policy and the National Science 
Foundation. They provided leadership and guidance on best practices to 
foster a culture to create new innovative technologies.
    In 2015, we were designated as a Blandin Broadband Community by the 
Blandin Foundation. The Blandin Foundation introduced us to the 
Intelligent Community Forum model (see image). Both of these 
organizations emphasized the importance of partnerships across sectors, 
and we saw this to be true on the frontlines of our work locally.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    It has been years of learning, setbacks, pivots and many wins to 
get where we are today. This format is challenging to provide an in-
depth response to this involved question. I would encourage your local 
champions and constituents to reach out directly to learn more.
Response from C. Blake Hurst, President, Missouri Farm Bureau 
        Federation; Board Member, American Farm Bureau Federation
    Question 1. In the Virgin Islands, so many people still lack basic 
and reliable access to the Internet and our businesses cannot compete 
globally and we are unable to attract larger businesses to the 
Territory without increase broadband.
    What assistance were you able to offer for Missouri residents that 
assisted your farmers in rural development?
    Answer. A working group was created that consisted of the Director 
of the Missouri Department of Agriculture, the Director of Extension at 
the University of Missouri, the Deputy Director of the Missouri 
Department of Economic Development (DED) and Missouri Farm Bureau. The 
group met on a regular basis and planned a rural broadband conference 
open to representatives of providers, rural organizations, the public 
sector and academia. The conference created the momentum to seek a 
broadband coordinator position within DED and legislation to start a 
broadband grant program. A coordinator was hired, legislation was 
approved to create the broadband grant program and a $5 million 
appropriation was received this fiscal year. A second statewide 
broadband conference was held this summer and we expect regulations for 
the grant program to be released soon.
    Missouri's progress can be traced back to a few very dedicated 
individuals who believe broadband is critical in both urban and rural 
areas. Support from local and statewide elected officials has also been 
instrumental in our success to date. Missouri residents have benefitted 
from increased coordination between the public- and private-sectors, 
greater awareness of the need for improved access to affordable 
broadband and an intense focus on funding opportunities at the state 
and Federal level.

    Question 2. Your testimony provided a lot of insight into the 
specific impacts of broadband access and precision ag technology for 
farmers. Fixed wireless and mobile technologies have clearly played an 
important role in filling the broadband needs of farmers and rural 
communities.
    Given the lower infrastructure requirements and cost of 
implementing those technologies, has further improvement and broader 
adoption of these technologies specifically affected the ability of 
smaller farms to adopt precision ag technology?
    Answer. The decision to adopt precision agricultural technology is 
based on its return on investment. Fa[r]mers and ranchers wear many 
different hats, including owning a business and keeping the business 
profitable. If the technology will allow the farmer to be more 
efficient and have a positive return on investment, then there is a 
strong likelihood that the farmer will invest in that technology, 
regardless of farm size. The only certainty is the lack of broadband 
prevents many farmers from even considering precision agriculture 
technology because there is no reason to invest in a technology that 
won't work in your fields.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
